<html>
<title> - BEHIND THE SCENES: SCIENCE AND EDUCATION AT THE SMITHSONIAN INSTITUTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     BEHIND THE SCENES: SCIENCE AND
                EDUCATION AT THE SMITHSONIAN INSTITUTION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                           Serial No. 111-107

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
57-605                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri                  
VACANCY                                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
           MELE WILLIAMS Republican Professional Staff Member
            MARCY GALLO Democratic Professional Staff Member
           BESS CAUGHRAN Democratic Professional Staff Member
                   MOLLY O'ROURKE Research Assistant


                            C O N T E N T S

                             July 21, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. G. Wayne Clough, Secretary, Smithsonian Institution
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    19

Ms. Claudine Brown, Director of Education, Smithsonian 
  Institution
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    27

Dr. Eldredge ``Biff'' Bermingham, Director, Smithsonian Tropical 
  Research Institute, Smithsonian Institution
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    35

Ms. Shari Werb, Assistant Director of Education, National Museum 
  of Natural History, Smithsonian Institution
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    40


BEHIND THE SCENES: SCIENCE AND EDUCATION AT THE SMITHSONIAN INSTITUTION

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                  House of Representatives,
     Subcommittee on Research and Science Education
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:50 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                     U.S. HOUSE OF REPRESENTATIVES

                Behind the Scenes: Science and Education

                     at the Smithsonian Institution

                             july 21, 2010
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose:

    The purpose of the hearing is to examine the Smithsonian 
Institution's research activities, educational programs, and management 
of scientific collections, as well as the intersection between those 
missions.

2. Witnesses:

        <bullet>  Dr. G. Wayne Clough, Secretary, Smithsonian 
        Institution

        <bullet>  Ms. Claudine Brown, Director of Education, 
        Smithsonian Institution

        <bullet>  Dr. Eldredge ``Biff'' Bermingham, Director, 
        Smithsonian Tropical Research Institute, Smithsonian 
        Institution

        <bullet>  Ms. Shari Werb, Assistant Director of Education at 
        the National Museum of Natural History

3. Overarching Questions:

        1.  In what areas of research does the Smithsonian Institution 
        (SI) play a prominent role? In what areas of research does SI 
        play a unique role relative to other Federal agencies? How does 
        SI coordinate its own research priorities and programs with 
        those of other Federal agencies, including the National Science 
        Foundation? How does SI collaborate or coordinate with non-
        profit research organizations, including universities, and with 
        foreign research agencies and organizations?

        2.  What is the Smithsonian Institution's role in science, 
        technology, engineering and mathematics (STEM) education? What 
        kinds of programs does SI support and for what levels of 
        education? How does SI take advantage of its museums and 
        research institutes to carry out its programs? How is SI's 
        education mission similar to or unique from that of other 
        Federal research agencies, and how, if at all, does the SI 
        coordinate or collaborate with other agencies and with non-
        governmental entities to achieve its mission? What is the 
        intended role of SI's new Director of Education?

        3.  What is the Smithsonian Institution's plan for long term 
        management of its scientific collections? In particular, how 
        does SI intend to implement the 2008 recommendations of the 
        Interagency Working Group on Scientific Collections? What are 
        the greatest challenges to long-term preservation and access to 
        scientific collections?

4. Background:

    The Smithsonian Institution (SI) was founded in 1846 by the United 
States Congress in response to a bequest of $500,000 by British 
scientist James Smithson, donated ``to the United States of America, to 
found at Washington, an establishment for the increase and diffusion of 
knowledge among men.'' The original Smithsonian `Castle' contained a 
library, lecture halls, exhibits and demonstrations, laboratories, and 
scientific artifact collections. In the last 160 years, SI has expanded 
to include 19 museums and galleries and nine research facilities, and 
168 other museums around the country are now affiliated with the 
Smithsonian. SI employs over 6,000 people and has as many volunteers, 
and publishes Smithsonian and Air & Space magazines in addition to 
other scholarly works. The Smithsonian collections include over 137 
million objects, specimens, and works of art. In 2009, SI museums and 
the National Zoo welcomed over 30 million visitors, while Smithsonian 
websites had over 188 million hits. The Smithsonian is currently the 
largest museum and research complex in the world.

Governance and oversight
    Originally established by an Act of Congress, the Smithsonian is 
technically a `federal trust instrumentality' and is not part of the 
executive branch. The 17-member Board of Regents acts as the 
Smithsonian's internal governing body. Traditionally, the Chief Justice 
of the United States is elected Chancellor, with the Vice President and 
Chief Justice both serving as ex-officio members of the Board. The rest 
of the board is composed of three Members each from the House and 
Senate, and nine citizen members authorized by a joint resolution of 
Congress. The Secretary is elected by the Board, as are the members of 
the Executive Committee. The current Secretary, Dr. G. Wayne Clough, 
was named to the position on March 15, 2008, and assumed office on July 
1 of that year.
    Currently, in the House of Representatives, the Committee on House 
Administration has legislative jurisdiction, with the Committee on 
Transportation and Infrastructure having oversight of construction 
projects. In the Senate, the Committee on Rules and Administration has 
full legislative jurisdiction. Federal funding falls under the 
Subcommittee on Interior, Environment, and Related Agencies on the 
House and Senate Appropriations Committees.
    In this Congress, the above Committees have held hearings on 
Smithsonian budget requests, stimulus-funded projects, asbestos 
management, GAO recommendations, and broader projects related to 
specific Smithsonian research activities, but no hearings have been 
held to examine the overall research agenda and activities at the 
Smithsonian Institution or focused on SI's educational programs or 
collections.

Funding
    Smithsonian has an annual budget of slightly more than $1 billion, 
of which about three quarters comes from direct federal appropriations. 
The remainder is held in general trust funds, separate from federal 
appropriations in SI's own budget, including revenue from museum and 
publication sales and licensing as managed by Smithsonian Enterprises, 
from private donations, and from both federal and non-federal grants 
and contracts. More than half of the total budget is allocated to 
salaries and benefits for Smithsonian employees, including researchers 
and scientists directly employed by the Institution. The Institution is 
also designated as a 501(c)(3) tax-exempt non-profit organization by 
the Internal Revenue Service.
    For FY 2011, Smithsonian designed its budget around four ``grand 
challenges,'' which provide the central strategy for planning and 
framing its efforts: Unlocking the Mysteries of the Universe, 
Understanding and Sustaining a Biodiverse Planet, Valuing World 
Cultures, and Understanding the American Experience. In this hearing, 
we will focus on the museums and research centers that fall under the 
Under Secretary of Science, fitting into three broad categories: 
astrophysics (Harvard-Smithsonian Center for Astrophysics, Air and 
Space Museum), ecology and environmental science (National Zoo/
Conservation Biology Institute, Environmental Research Center, Tropical 
Research Institute, Museum of Natural History) and museum research, 
conservation, and collections (Museum of Natural History, Museum 
Conservation Institute, Smithsonian Libraries).
    The Fiscal Year (FY) 2011 request for Congressional appropriations 
totals $797,600,000. This is roughly a four percent increase over FY 
2010 levels, with the largest increases in discretionary funds 
requested for research on biodiversity (+$2 million) and climate change 
(+$4 million), digitization and web support (+$1.5 million), and 
collections care (+$2.45 million). For the first time, in FY 2011, the 
Smithsonian research appropriations request is large enough to be 
listed as an individual line item on the Administration's Research and 
Development budget summary; in the past, the request was too small and 
fell under ``Other'' R&D.

Research
    In the early years of the Smithsonian Institution, its focus was 
largely on the science itself. Its first Secretary, American scientist 
Joseph Henry, focused on research and the ``increase of knowledge'' 
rather than its ``diffusion,'' and was unenthusiastic about museums. 
Although the Institution has evolved to have a strong focus on cultural 
and historic knowledge as well, the first two of its ``Grand 
Challenges'' are directly related to scientific discovery and 
understanding. SI is a world leader in many areas of scientific 
research, and houses some of the largest and most acclaimed research 
programs in their respective fields.
    The science-based research centers, as well as several of the 
Smithsonian's museums and the National Zoo, are overseen by the 
Smithsonian's Under Secretary for Science, a post currently held by Dr. 
Eva Pell, while other museums and programs fall under the Under 
Secretary for History, Art, and Culture.

        <bullet>  Center for Earth and Planetary Studies (CEPS)

        The Center for Earth and Planetary Studies is the research unit 
        of the National Air and Space Museum, located in the museum 
        complex in DC. and at the Steven F. Udvar-Hazy Center in 
        Virginia. The Center focuses specifically on planetary and 
        terrestrial geology and geophysics using remote sensing data, 
        with ongoing research programs examining Mercury, Venus, Earth, 
        Mars, and the moon.

        <bullet>  Conservation Biology Institute (CBI)

        The Smithsonian Conservation Biology Institute includes 
        conservation biology and research programs at the National Zoo 
        and at CBI's Front Royal, VA headquarters, previously known as 
        the National Zoo's Conservation and Research Center. Dedicated 
        to preserving and promoting biodiversity, the Institute has 
        centers for animal care, conservation ecology, conservation 
        education and sustainability, conservation and evolutionary 
        genetics, migratory birds and species survival.

        <bullet>  Environmental Research Center (SERC)

        The newest of SI's research institutes, the Environmental 
        Research Center is located on 3,000 acres of land bordering the 
        Chesapeake Bay in Maryland, and conducts both research and 
        education programs on the Chesapeake Bay and its watershed. Its 
        research is distinguished from other Chesapeake research 
        facilities by including terrestrial elements in its research, 
        rather than focusing solely on the Bay. SERC scientists also 
        have comparative and interdisciplinary research programs 
        comparing their own coastal ecosystems to others around the 
        world.

        <bullet>  Harvard-Smithsonian Center for Astrophysics (CfA)

        The Harvard-Smithsonian Center for Astrophysics is the result 
        of a collaboration between the Smithsonian Astrophysical 
        Observatory and the Harvard College Observatory, headquartered 
        in Cambridge, MA, with major research sites in Arizona and 
        Hawaii. It is one of the world's largest astrophysical 
        institutions and owns and operates a number of observatories 
        around the world, including at the South Pole, as well as 
        several satellite observatories. CfA also has an active Science 
        Education Department conducting research on outcome-based 
        teaching and assessments.

        <bullet>  Museum Conservation Institute (MCI)

        Formerly known as the Smithsonian Center for Materials Research 
        and Education, the Museum Conservation Institute is a leader in 
        the field of collections care and preservation. MCI also 
        conducts technical and interpretational research on museum 
        specimens, including anthropological analyses, and provides 
        consultation to both federal agencies and outside institutions 
        in addition to working closely with the 19 Smithsonian museums. 
        Located in Suitland, MD, the Museum Conservation Institute 
        employs materials scientists, chemists, and specialists in 
        museum conservation and technology.

        <bullet>  Museum of Natural History (NMNH)

        The Museum of Natural History is the largest of the Smithsonian 
        research centers and houses the scientific research departments 
        of Anthropology, Botany, Entomology, Invertebrate Zoology, 
        Mineral Sciences, Paleobiology, and Vertebrate Zoology. The 
        Museum's research division places a major emphasis on 
        interdisciplinary research, housing programs on the Evolution 
        of Terrestrial Ecosystems, Archaeobiology, Arctic Studies, 
        Human Origins, and Paleoindian studies in addition to 
        discipline-specific research. NMNH also runs several external 
        research facilities, including the Smithsonian Marine Station 
        at Fort Pierce, FL, which conducts research on ecosystems and 
        marine biodiversity, and the Caribbean Coral Reef Ecosystems 
        Program at the Carrie Bow Marine Field Station on Belize's 
        Meso-American Barrier Reef.

        <bullet>  Tropical Research Institute (STRI)

        Located in Panama, the Tropical Research Institute has 
        conducted research on tropical land- and marine-based 
        ecosystems since 1923. It is the only SI bureau not based in 
        the United States. STRI also hosts a number of research 
        programs in collaboration with outside universities and 
        government institutions, including the Yale School of Forestry 
        and Environmental Studies, the Panama Canal Authority, Panama's 
        Environmental Authority, and Brazil's National Institute for 
        Amazonian Research. It is one of the largest research centers 
        for tropical biology in the world.

    A significant portion of the Smithsonian's research is funded by 
its own direct appropriations. SI researchers are staff scientists with 
their own research budgets, reviewed periodically for progress, but do 
not have to go through a standard competitive process. In this way, 
they are more similar to federal scientists at mission agencies than to 
their academic counterparts. The National Research Council (NRC) 
reviewed this funding mechanism in 2003 and found that SI's non-
competitive funding mechanisms are especially critical for SI's 
environmental and large-scale research activities. These often span 
over long periods of time and would be impractical under a standard 
three-year competitive grant cycle.
    In many cases, Smithsonian scientists also compete for funding from 
other federal grant-making agencies, including NASA, NIH, DOD, and NSF. 
The Smithsonian's scientific community includes many of the top experts 
in their respective fields, and they are very competitive when applying 
for outside funds from agencies or private grant making organizations.

Education and outreach programs
    The Smithsonian's museums and research centers are known for their 
commitment to education and outreach as well as scientific discovery. 
There are 32 museum- or research center-level education offices 
throughout the Institution, offering hands-on workshops for K-12 
students as well as lectures and seminars at a more advanced level, in 
addition to on-site exhibits. More than 150,000 K-12 students and 
teachers visit the education centers each year. Many have formal, 
ongoing relationships with school districts, integrating field trips 
into the schools' existing curricula. Museums and research centers are 
also increasingly making their educational resources available online 
and developing `hands-on' internet activities to reach students in 
communities across the country. In addition to its education programs, 
SI regularly publishes its own scholarly articles and books, and has 
designed numerous online encyclopedias and portals designed to support 
all levels of learning, indicating that education and outreach--James 
Smithson's ``diffusion'' of knowledge--are significant priorities for 
the Institution.
    On June 20, Claudine Brown joined the Smithsonian as its first ever 
Director of Education, reporting directly to the Secretary. She 
oversees the two major educational entities at SI--the Center for 
Education and Museum Studies and the National Science Resource Center--
in addition to coordinating the 32 individual education offices. Brown 
will also be responsible for developing a comprehensive education plan 
for SI's education and outreach activities.
    The Smithsonian's Center for Education and Museum Studies provides 
educational information on museum visits as well as numerous 
educational resources for teachers, parents and students through its 
website. The National Science Resources Center (NSRC) is jointly 
operated by the Smithsonian and the National Academies; its mission is 
to improve the teaching and learning of science, provide professional 
development opportunities for science teachers, and develop and 
disseminate research-based curricula.
    The Smithsonian's museums, research centers, and education, 
outreach, administrative and policy offices offer hundreds of 
internships and research fellowships each year, reaching students from 
the high school to the post-doctoral level. Most institutions manage 
their own internships and fellowships, augmented by its equal 
opportunity and cultural diversity programs for minorities, Native 
Americans, and persons with disabilities.
    The Smithsonian Institution Libraries system (SIL) serves both the 
research and education communities, and is the largest museum library 
system in the world. SIL manages 20 museum- and discipline-specific 
libraries in D.C., Maryland, New York and Panama. SIL is designed as an 
academic and public library system, in addition to its primary mission 
of supporting Smithsonian Institution staff and research missions. 
There are also two Smithsonian-affiliated publishing companies--the 
Smithsonian Institution Scholarly Press, which publishes scholarly 
works written by Smithsonian researchers and museum curators, and 
Smithsonian Books and Harper Collins, publishing books by both SI-
affiliated and outside authors.

Scientific Collections
    The Smithsonian also has the one of the largest federal object-
based scientific collections, serving as a resource for Smithsonian's 
own research and museum display purposes and for other federal and 
academic scientists as well. In particular, its natural history 
collection is the largest in the world, composing about 92 percent of 
the Smithsonian's 137 million total specimens collected over more than 
150 years. Many of the Smithsonian's collections are also available to 
outside scientists not directly affiliated with SI. Some federal 
employees from other agencies work out of the NMNH to reduce 
duplication of collections and to take advantage of the Smithsonian's 
resources, and those partnerships represent a significant financial 
contribution to the Museum's collections budget. There are also 
hundreds of ongoing digital imaging projects aimed at putting 
collections online and making them available to the public. The 
Smithsonian's websites receive eight times as many visitors as the 
museums, making digitization of Smithsonian collections an integral 
part of SI's greater education and outreach initiatives.
    Other federal departments and agencies also have large scientific 
collections, such as USDA's collections of plants, insects, diseases, 
and other agriculture-related specimens, or NIST's calibration 
collections, used to define and calculate accurate weights and 
measurements. Some of the Smithsonian's own collections are also shared 
or maintained with other agencies; the Zoo's collaboration with the 
U.S. Fish and Wildlife Service is one example. The Smithsonian is 
believed to have the most individual specimens and artifacts of any 
collection in the world.
    In 2005, the National Science and Technology Council (NSTC)'s 
Committee on Science created an Interagency Working Group on Scientific 
Collections (IWGSC) to ``examine the current state of Federal 
scientific collections and to make recommendations for their management 
and use'' \1\ at the urging of OMB and the Office of Science and 
Technology Policy (OSTP). Co-chaired by the Smithsonian Institution and 
the Department of Agriculture, the IWGSC's report, Scientific 
Collections: Mission-Critical Infrastructure for Federal Science 
Agencies, noted both the importance and the lack of adequate staffing, 
funding, and documentation of federal collections. The working group 
had several recommendations related to cost projections, documentation, 
agency responsibilities, creation of an online clearinghouse, periodic 
reports, and improved long-term coordination of federal collections. In 
the America COMPETES Reauthorization Act of 2010, the Committee on 
Science and Technology included a provision requiring OSTP and the 
science agencies to implement several of the key recommendations in the 
2009 report.
---------------------------------------------------------------------------
    \1\ National Science and Technology Council, Committee on Science, 
Interagency Working Group on Scientific Collections. Scientific 
Collections: Mission-Critical Infrastructure for Federal Science 
Agencies. Office of Science and Technology Policy, Washington, D.C., 
2009.

Strategic Plan
    In SI's 2010-2015 Strategic Plan, three questions were proposed to 
measure the success of the Smithsonian's efforts and initiatives:

        Has the Smithsonian:

        1.  ``Made leading contributions to national and global efforts 
        to unlock the mysteries of the universe, understand and sustain 
        a biodiverse planet, value world cultures, and understand the 
        American experience, through collaborative efforts among 19 
        museums, nine research centers, and numerous outreach and 
        education programs?

        2.  ``Harnessed the power of technology to grow and share the 
        Institution's knowledge and collections through exhibition, 
        education, and outreach, and to triple the number of meaningful 
        learning experiences we offer daily?

        3.  Increased the number of visitors, employees, and key 
        partners and stakeholders who rate us as an excellent 
        organization in which to invest, work, and learn, through new 
        and more efficient ways of working and increased collaboration, 
        accountability, and financial stability? \2\
---------------------------------------------------------------------------
    \2\ Smithsonian Institution. Inspiring Generations Through 
Knowledge and Discovery: Strategic Plan. Washington, D.C., 2009. 5.

    This hearing will examine these same questions, and attempt to 
identify areas of growth and improvement among Smithsonian research, 
education, and collections activities.
    Chairman Lipinski. This hearing will now come to order. The 
Chair will recognize himself for five minutes for an opening 
statement.
    Good afternoon. Welcome to today's Research and Science 
Education Subcommittee hearing on Science and Education at the 
Smithsonian Institution. When most Americans think of the 
Smithsonian, they think about the famous museums and the castle 
along the National Mall. Some that know a little more might 
also think of the National Zoo. But most people do not know 
that the Smithsonian Institution receives nearly $800 million a 
year in federal appropriations or that over $200 million of 
that goes toward basic scientific research and dedicated 
Smithsonian research facilities.
    In spite of receiving almost $1 billion a year in taxpayer 
funds, the Smithsonian is not actually part of any branch of 
government. Although it began with a bequest from British 
scientist James Smithson, it is technically a `federal trust 
instrumentality,' established by an act of Congress in 1846. As 
such, it is appropriate and necessary for the Congress to take 
a more active roll in oversight of the Institution's activities 
and long-term plans.
    This hearing will focus on the Smithsonian's contributions 
to scientific research and education and its vast scientific 
collections, and on how the Institution collaborates with 
federal agencies. I am looking forward to learning what goes on 
behind the scenes at their 19 museums and nine research centers 
and how they share expertise with 168 affiliated museums from 
around the country.
    I am particularly interested in hearing from the 
Smithsonian's first ever Director of Education and about her 
plans for improving education, outreach, and access programs. 
Informal science education has been a passion of mine on this 
subcommittee, probably because I know how my early experiences 
at the Museum of Science and Industry, Field Museum, and other 
museums in Chicago really influenced my interests in science 
and engineering. I hope both Director Brown and Secretary 
Clough will explain how the new position fits into the 
Smithsonian's strategy in the strategic plan, and what its role 
is and what it should be in federal STEM education programs.
    The Smithsonian Institution's research centers stretch from 
the Tropical Research Institute in Panama to the Harvard-
Smithsonian Center for Astrophysics. These facilities, which 
are home to some of the world's foremost scientific experts, 
are almost unknown to the general public. The Center for 
Astrophysics, for example, has 300 scientists and 12 telescopes 
on land and in the sky, but most of us have never heard of the 
Center or its work.
    The Smithsonian is especially active in the life sciences, 
including ecology, with four of the research centers and the 
National Zoo focusing in these areas. As one of the co-chairs 
of the Congressional Zoo and Aquarium Caucus, I am particularly 
interested in learning about the Zoo's efforts to repopulate 
endangered species.
    Finally, I would like to hear how the Smithsonian works 
with other federal agencies, including through coordinating 
bodies like the Office of Science and Technology Policy and the 
National Science and Technology Council. Although federal 
coordination is a bit more complicated because the Smithsonian 
is not a part of the Executive Branch, working with other 
science and education agencies is extremely important if we 
want to maximize the impact of federal spending.
    One area where it is especially important to coordinate 
between agencies is in managing and sharing scientific 
collections. The Smithsonian has one of the largest collections 
in the world, including over 137 million individual specimens 
and artifacts used for scientific research and museum displays. 
In 2005, the Smithsonian and the Department of Agriculture co-
chaired an interagency working group that released a report 
highlighting the importance of improving collections 
management. I am looking forward to learning more about the 
Smithsonian's plans for implementing the recommendations in 
this report.
    I would like to thank all of our witnesses for joining us, 
and I look forward to their testimony.
    [The prepared statement of Chairman Lipinski follows:]

             Prepared Statement of Chairman Daniel Lipinski

    Good afternoon and welcome to today's Research and Science 
Education Subcommittee hearing on Science and Education at the 
Smithsonian Institution.
    When most Americans think of the Smithsonian, they think about the 
famous museums and the castle along the National Mall. Some that know a 
little more might also think of the National Zoo. But most people do 
not know that the Smithsonian Institution receives nearly $800 million 
a year in federal appropriations, or that over $200 million of that 
goes toward basic scientific research and dedicated Smithsonian 
research facilities.
    In spite of receiving almost a billion dollars a year in taxpayer 
funds, the Smithsonian is not actually part of any branch of 
government. Although it began with a bequest from British scientist 
James Smithson, it is technically a ``federal trust instrumentality,'' 
established by an Act of Congress in 1846. As such, it is appropriate 
and necessary for the Congress to take a more active role in oversight 
of the Institution's activities and long-term plans.
    This hearing will focus on the Smithsonian's contributions to 
scientific research and education, on its vast scientific collections, 
and how the Institution collaborates with federal agencies. I'm looking 
forward to learning what goes on behind the scenes at their 19 museums 
and nine research centers, and how they share expertise with the 168 
affiliated museums from around the country.
    I'm particularly interested in hearing from the Smithsonian's 
first-ever Director of Education, and about her plans for improving 
education, outreach, and access programs. Informal science education 
has been a passion of mine on this subcommittee, probably because I 
know how my own early experiences at the Museum of Science and Industry 
and the Field Museum in Chicago influenced my interest in science and 
engineering. I hope both Director Brown and Secretary Clough will 
explain how the new position fits into the Smithsonian's strategic plan 
and what its role is, and should be, in federal STEM education 
programs.
    The Smithsonian Institution's research centers stretch from the 
Tropical Research Institute in Panama to the Harvard-Smithsonian Center 
for Astrophysics. These facilities, which are home to some of the 
world's foremost scientific experts, are almost unknown to the general 
public. The Center for Astrophysics, for example, has 300 scientists 
and 12 telescopes on land and in the sky, but most of us have never 
heard of the Center or its work. The Smithsonian is especially active 
in the life sciences, including ecology, with four of the research 
centers and the National Zoo focusing in these areas. As one of the Co-
chairs of the Congressional Zoo and Aquarium Caucus, I am particularly 
interested in learning about the Zoo's efforts to repopulate endangered 
species.
    Finally, I would like to hear how the Smithsonian works with other 
federal agencies, including through coordinating bodies like the Office 
of Science and Technology Policy and the National Science and 
Technology Council. Although federal coordination is a bit more 
complicated because the Smithsonian is not a part of the Executive 
Branch, working with other science and education agencies is extremely 
important if we want to maximize the impact of federal spending.
    One area where it is especially important to coordinate between 
agencies is in managing and sharing scientific collections. The 
Smithsonian has one of the largest collections in the world, including 
over 137 million individual specimens and artifacts used for scientific 
research and museum displays. In 2005, the Smithsonian and the 
Department of Agriculture co-chaired an interagency working group that 
released a report highlighting the importance of improving collections 
management. I'm looking forward to learning more about the 
Smithsonian's plans for implementing the recommendations in this 
report.
    I would like to thank all of our witnesses for joining us and look 
forward to their testimony.

    Chairman Lipinski. And with that the Chairman will 
recognize Dr. Ehlers for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman, and I am sorry I held 
things up, but unfortunately, the Education Committee was 
holding votes, and as you know, votes come before statements.
    Thank you, Chairman Lipinski. I am pleased the Committee is 
holding this important hearing today. The Smithsonian is one of 
my favorite enterprises. I was involved in it in a couple of 
different roles. One is on this committee and subcommittee, but 
also in the old days when I chaired the House Administration 
Committee we had to worry about animals dying in the zoo and 
various things like that. So I have somewhat of a history with 
the Smithsonian, and I think it is an absolutely marvelous 
institution.
    I am also pleased that as director of the House 
Administration Committee, we were able to clear up some of the 
problems that had developed over the years. And we now have a 
superb leader hiding behind a pseudo beard, but he is someone I 
have known for a number of years from those years at Georgia 
Tech as well. I am just delighted that he was--accepted the 
position of the Smithsonian, and we are looking to great things 
from all of you.
    The main thing the Smithsonian needs is money, and that is 
true, of course, of every government agency, but it is unique 
with the Smithsonian because it is not quite a government 
agency. It is an entity unto itself, and we should do whatever 
we can to help them in their fundraising efforts.
    And I sincerely hope that we are able to develop excellent 
fundraising methods. The Smithsonian has so much to offer this 
Nation, and frankly if I had my way, I would like to provide a 
two-way fare for every citizen to come here and spend a few 
days in the Smithsonian. I don't think I could get that to 
pass, however.
    The Smithsonian has a unique role in science and education. 
I did my best to learn everything I could about the 
Smithsonian's various research entities, and especially its 
work to improve STEM education. A number of years ago I took a 
trip with the Transportation and Infrastructure Committee to 
Central and South America. We were worried about security on 
shipments into the United States, and Panama, of course, is a 
major center of commerce, so we spent some time there. While I 
was there, I saw a sign for the Smithsonian Tropical Research 
Institution and decided to stop by. You can imagine the 
pleasure and dismay of the workers at the Institution to 
suddenly have two congressmen appear in the door and ask if we 
could look around. They did a great job of explaining the 
function of the Tropical Research Institution, and I was very 
impressed with the work they do. I would love to spend a few 
more days there, and unfortunately, we were on a Transportation 
airplane rather than Smithsonian airplane. I don't think you 
even have one, do you?
    But at any rate, it was a very worthwhile trip. The staff 
there was extremely gracious in explaining their work and 
sharing their excitement for discovery.
    I believe the Smithsonian has resources and insights unlike 
any other organization. It has subject matter experts who are 
also committed to public service. Hearing from the world's 
largest museum and research complex seems wise as we determine 
how to manage our diverse federal efforts in science education 
and research.
    I look forward to hearing about this topic from our 
witnesses today.
    With that I yield back.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you, Chairman Lipinski. I am pleased that the Committee is 
holding this important hearing today.
    The Smithsonian has a unique role in science and education. When I 
served on the Committee on House Administration, my colleagues and I 
were responsible for overseeing this important institution. I did my 
best to learn everything I could about Smithsonian's various research 
entities, and especially its work to improve STEM education.
    A number of years ago I took a trip with the Transportation and 
Infrastructure Committee to Panama, and while I was there I saw a sign 
for the Smithsonian Tropical Research Institution and decided to stop 
by. Despite the fact that I arrived unexpectedly, the staff there was 
extremely gracious in explaining their work and sharing their 
excitement for discovery.
    I believe the Smithsonian has resources and insights unlike any 
other organization. It has subject matter experts who are also 
committed to public service. Hearing from the world's largest museum 
and research complex seems wise as we determine how to manage our 
diverse federal efforts in science, education and research.
    I look forward to hearing about this topic from our witnesses.

    Chairman Lipinski. Thank you, Dr. Ehlers, and I was on a 
different Transportation Committee trip down to Panama, and I 
didn't even have enough time other than for them to point out 
the window and say there is a Smithsonian building over there. 
I didn't get a chance to scare the people there by slipping in 
for a few minutes.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    And at this time I want to introduce our witnesses. We have 
Dr. Wayne Clough, who is the Secretary and CEO of the 
Smithsonian Institution, and I am very happy that he is also a 
civil engineer, and former President of Georgia Tech. Ms. 
Claudine Brown is the Director of Education at the Smithsonian 
Institution. Dr. Biff Bermingham is the Director of the 
Smithsonian Tropical Research Institute, and Ms. Shari Werb is 
the Assistant Director of Education at the National Museum of 
Natural History.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you get--if you 
do pass five minutes, I will start giving you a signal with the 
easy end of the gavel, and if you get past six, then you will 
hear the other end of the gavel just to let you know that--give 
you a little warning there.
    We are hoping we will have enough time. We are going to 
have votes again coming up, another series of votes coming up, 
so hopefully we will have time to go through your testimony and 
questions before that. But when you have all then completed 
your testimony, we will have the questions, and each Member 
will have five minutes to ask any question of the panel.
    And so we will start now with Dr. Clough. Dr. Clough, you 
are recognized for five minutes.

     STATEMENT OF G. WAYNE CLOUGH, SECRETARY, SMITHSONIAN 
                          INSTITUTION

    Dr. Clough. Thank you, Chairman Lipinski and Dr. Ehlers and 
Members of the Committee for having us here and giving us this 
opportunity.
    Before I read my statement, I would like to introduce you 
to a couple of the objects that I have here on the table. On 
the far ends of the table are objects that have been collected 
from the Gulf and near the site of the Deep Horizon oil spill 
and problem. They represent the so-called `voucher collections' 
for the Gulf, and the Smithsonian maintains these for the 
country, and they represent the baseline of the ecosystem for 
the entire Gulf and Atlantic side so that when the time comes 
to establish the damage that has been done and the ability to 
clean up the damage, we will have to use these voucher 
collections. This just illustrates the value of collections and 
having them and maintaining the importance of them.
    In front of me, here on pins, are a group of mosquitoes, 
different types, some malaria bearing, others not so. We 
maintain collections of insects, entomological collections that 
are very useful, particularly for our military, and they 
venture into some of these dangerous areas to determine the 
types of insects that might be--the types of things that will 
create problems for our military. These collections are used in 
concert with other agencies to make those kinds of evaluations.
    And finally, in front of me in this small orb is an object 
from Mars, a little piece of Mars. This is called a Mars 
meteorite, and it occurred as a result of a meteorite impact on 
Mars that freed up a piece of Mars, came through the Martian 
atmosphere and ended up on Earth. It is estimated that this 
object is four billion years old, so essentially the age of our 
Earth, and it is from Mars based on the chemical analysis that 
has been done of it. The Smithsonian keeps the meteorite 
collection, the National Meteorite Collection, for our country, 
and it is an interesting one. We invite you to come see those 
some time when you have the opportunity.
    So just a little bit about myself. My career has focused on 
education and research, with much of this related to science 
and engineering, first as a university faculty member and 
subsequently to be fortunate to be named President of my alma 
mater, Georgia Tech. It is now a great honor for me to serve as 
Secretary of the Smithsonian, with wonderful colleagues that 
you will hear from later, and the passionate people who work 
there.
    When I started at the Smithsonian, I felt we needed to re-
energize our efforts in science and education so that we would 
have a much greater effect on what we did for our country. I am 
excited about the future of the Smithsonian. We have a new 
strategic plan and a commitment to create new approaches using 
our existing resources to work across disciplines, to attack 
big problems our country faces.
    We are going to do that by building partnerships. Not by 
ourselves, but building partnerships with universities, NGOs, 
and federal agencies so we can leverage what we and they do 
rather than creating duplication.
    As to education, the Smithsonian has always been an 
educational institution, so we will honor and enhance the 
traditional visits to our museums, while digitally, we will 
also reach people where they live and learn. This will be a new 
aspect of the Smithsonian. In doing so, we believe we can help 
revitalize K-12 education in our Nation.
    We just hired a new Director of Education, Claudine Brown, 
to coordinate and to enhance our efforts, and you will hear 
from Shari Werb, who works on the front line of delivering 
education at our Museum of Natural History.
    Smithsonian science has a storied history that goes back to 
the founding of the Institution in 1846. As the reach of our 
sciences grew over time, it became geographically distributed 
as those activities tended to move away from the Mall, since 
they didn't have to be here.
    For example, we have a Conservation Biology Institute for 
the National Zoo that deals with endangered species that is 
located in Front Royal, Virginia; the Smithsonian Environmental 
Research Center is located in Edgewater, Maryland, 3,000 acres 
on the Chesapeake Bay; the Smithsonian Tropical Research 
Institute in Panama; and the Smithsonian Astrophysical 
Observatory in Cambridge, Massachusetts.
    These units, combined with the Mall-based Natural History 
Museum and the great Air and Space Museum, comprise a 
remarkable and uniquely-positioned national science enterprise.
    Of course, it really all comes down to people, and I have 
learned much by personally going to meet our scientists in 
their laboratories as well as their field sites in places like 
Chile, Kenya, Panama, Antarctica, and the far reaches of 
Alaska, most recently. I can assure you our scientists are 
passionate about what they do. They are committed public 
servants, and they are enormously talented.
    The Smithsonian science is really a diverse enterprise, and 
I want to take just a moment to attempt to define our role and 
the uniqueness of it. First, who are we? Today more than 500 
Smithsonian staff scientists work in fields such as astronomy, 
biology, botany, zoology, entomology, paleontology, and earth 
sciences. The quality of their work is demonstrated, if you 
look over the last decade, by hundreds of publications in the 
most prestigious science publications, like Nature and Science 
magazines. Among our research staff, 17 are members of the 
National Academies, and we have one Nobel laureate.
    The Smithsonian is exceptional and distinctive in 
conducting long-term studies that require large data gathering 
exercises, something that is critical in understanding these 
processes, and you see some of that evidence here on the table.
    We have the largest and most used natural history 
collection on earth; 126 million of 137 million objects are 
natural history collections. They are used by almost all the 
federal agencies for their work. We have an ambitious idea to 
create a ``Digital Smithsonian'' to deliver what we do here on 
the Mall out to people where they work and they live.
    What do we do now? We believe we examine some of the most 
complex and time-sensitive problems that our Nation faces. Our 
scientists assess the consequences of climate change, we keep 
aircraft safe from bird strikes, we document and control 
invasive species, and assist our Armed Forces in keeping them 
safe from insect-borne disease.
    What are we going to do differently in the future? Our 
strategic plan lays that out. We shape the future by preserving 
our heritage, discovering new knowledge, and sharing our 
resources with the world. We have a series of ``Grand 
Challenges,'' and two of these deal specifically with our 
science mission.
    First, ``Understanding and Sustaining a Bio-diverse 
Planet,'' which is critical to the survival of our species. We 
have unmatched capacity to tackle this task. As an example, the 
Smithsonian Institution's Global Earth Observatories Network 
observes trees, millions of trees and forests around the world. 
You will hear more of that from Biff Bermingham.
    And second, ``Unlocking the Mysteries of the Universe,'' 
particularly based in our work at the Smithsonian Astrophysical 
Observatory, one of the world's great physical observatories.
    Thanks to the help of Congress and the American people, the 
Smithsonian will continue to strive to enhance our relevance to 
the Nation by improving scientific literacy, providing 
information that is important to our policymakers, inspiring 
students, and insuring a brighter future for us all.
    Thank you for this opportunity to be with you today.
    [The prepared statement of Dr. Clough follows:]
                 Prepared Statement of G. Wayne Clough

Introduction

    Mr. Chairman and Members of the Subcommittee -
    It is my privilege to appear before the Subcommittee to testify 
about the science research and education programs conducted at the 
Smithsonian Institution. Over the next decade, the Smithsonian is 
committed to using its resources to become more engaged than ever 
before with the great issues of our day and to energize our work with a 
new spirit, capitalizing on the passion of the people of the 
Smithsonian for their work. The Institution completed a year-long 
inclusive process resulting in a Strategic Plan that is 
interdisciplinary and entrepreneurial, and which has been embraced by 
both internal and external stakeholders. It calls for us to broaden 
access and reach new audiences by bringing the resources of our museums 
and research centers to people where they learn and live. Our goal is 
to serve not only the millions of people who visit our museums, but to 
reach those who are not able to come or who are not aware of the 
opportunities for learning that we offer. The plan also brings focus to 
our future efforts in science, creating new opportunities through 
crossdisciplinary and collaborative approaches within the Smithsonian 
itself as well as with partners who share our commitment and complement 
our strengths.
    Every day, in every corner of the globe, Smithsonian science 
examines some of the world's most complex--and time-sensitive--
problems. Whether they are protecting ecosystems that are threatened, 
assessing the consequences of climate change or keeping aircraft safe 
from bird strikes, Smithsonian scientists apply what they learn to 
improve the quality--and quantity--of life on Earth. Their work 
addresses some of our most pressing issues, including education about 
the impacts of volcanic eruptions, discovery of new planets, minimizing 
the growing effects of invasive species and setting the baseline for 
damage from the Gulf of Mexico oil spill.
    Today, more than 500 Smithsonian staff scientists, augmented by an 
equal number of fellows and hundreds of international collaborators, 
conduct research in field stations and laboratories on all seven 
continents and serve as national and international experts in a wide 
range of disciplines. Over a thousand students intern with us each year 
and work with our scholars, and many more learn by visiting our field 
stations, museums and the National Zoo. They come to be part of our 
exciting science agenda and we welcome the opportunity to help them 
grow to be the next generation of scientists for our nation.
    The home of the Smithsonian science agenda is found in a group of 
key facilities and units, many historical and with long and 
distinguished histories.

Museums

    The Smithsonian is home to the National Museum of Natural History 
(NMNH), the National Air and Space Museum (on the Mall and at Dulles 
International Airport), the National Zoological Park in Washington, 
D.C., and the Zoo's world-class biological conservation facility in 
Front Royal, Virginia. The NMNH opened one hundred years ago this year, 
and not only is a premier museum visited by 7.5 million people a year, 
but home to world class science in botany, biology, zoology, 
paleontology, anthropology, archeology, ornithology, earth sciences, 
and vulcanology. Its collections, with 126 million specimens and 
objects, are the largest in the world and are increasingly available to 
scholars and citizens alike around the world through digital access.
    Combined, our science museums and the National Zoo host upwards of 
15 million visitors annually, offering the largest single opportunity 
in the world to educate the public about science. The science research 
done by the Smithsonian informs museum exhibits and Zoo exhibits and 
insures that the extensive educational outreach that emanates from them 
is up-to-date and cutting edge.

Smithsonian Centers of Research

    The nature and scope of Smithsonian science is built on a world 
stage, involving activities in over 80 countries. In addition to the 
museums, Smithsonian science is driven by a group of leading research 
centers that allow focus on crosscutting topics or build on physical 
platforms not found in the museums.

    Smithsonian Environmental Research Center (SERC), Edgewater, MD

    SERC is the leading national research center for understanding 
environmental issues in the coastal zone. Its scientists engage in 
interdisciplinary studies that address issues such as global climate 
change, watershed pollution, the maintenance of productive fisheries, 
the changes wrought by invasive species and the ecology of fragile 
wetlands and woodlands. The reach of the SERC efforts on land/water 
ecosystems includes not only the Chesapeake Bay, but the Atlantic, Gulf 
of Mexico, and Pacific coasts.

    Smithsonian Tropical Research Institute (STRI), Panama

    STRI is the world's premier tropical biology research institute, 
and is celebrating its 100th anniversary this year. Originated because 
of the construction of the Panama Canal, it has grown to become a world 
leader in preserving tropical forests and the ecosystems found there. 
Dedicated to increasing our understanding of the past, present and 
future of tropical biodiversity and its relevance to human welfare 
through studies in marine biology, terrestrial ecology and 
paleontology, STRI's facilities provide a unique opportunity for long-
term ecological studies in the tropics and are used extensively by both 
Smithsonian scientists and hundreds of visiting scientists from around 
the world. STRI works with SERC on projects relating to carbon 
sequestration and invasive species. My colleague Biff Bermingham is 
here with us to give you additional information on STRI's activities.

    Smithsonian Astrophysical Observatory (SAO), Cambridge, MA

    SAO is arguably the largest and most diverse astrophysical 
institution in the world, where scientists carry out a broad program of 
research in astronomy, astrophysics, earth and space sciences and 
science education. The Observatory's mission is to advance our 
knowledge and understanding of the universe through research and 
education in astronomy and astrophysics. Its scientists are among the 
best in the world, and it also builds the remarkable instruments needed 
for astrophysical work and operates larger land- and space-based 
telescopes.

    National Zoological Park (NZP)/Smithsonian Conservation Biology 
Institute (SCBI), Washington, D.C. and Front Royal, VA

    National Zoo scientists are based at the Zoo in Washington, D.C., 
the Smithsonian Conservation Biology Institute in Front Royal, VA and 
at field sites around the world. They conduct research to aid in the 
survival or recovery of species and their habitats and ensure the 
health and well-being of animals in captivity and in the wild. During 
the past 28 years, more than 4,300 people from 109 countries have been 
trained through the Zoo's professional programs in conservation biology 
and zoological medicine. In addition, the Zoo cares for more than 2,000 
animals representing 400 difference species.

    National Air and Space Museum (NASM), Washington, D.C.

    Scientists at NASM's Center for Earth and Planetary Studies, a 
NASA-supported program, study a variety of geological processes, such 
as volcanism, floods, crater formation, tectonics and sand movement. 
Many of the studies also address topics of concern for climate change. 
The scope of research activities includes work on Mercury, Venus, the 
Moon, Mars, asteroids and some satellites of the outer solar system.

    Museum Conservation Institute (MCI), Suitland, MD

    Researchers use state-of-the-art instrumentation and scientific 
techniques to provide technical research studies and interpretation of 
art, as well as anthropological and historical objects. Their work 
assists scientists, art historians and conservators as they place 
objects within a culture and a time period, look for new cultural 
influences within societies and compare cultural and technological 
change across different periods and geographic areas. The Institute is 
the only Smithsonian resource for technical studies and analyses for 
the majority of Smithsonian collections.
    Many of the most important issues facing our nation and our world 
cross disciplines and call for a new approach that melds the strengths 
of units and entities. Our new strategic plan lays the groundwork for 
the Smithsonian to lead in such efforts. While much is yet to come, we 
are on our way with a number of exciting efforts that involve not only 
multiple units at the Smithsonian but also in collaboration with other 
museums and universities. We have active involvements with universities 
like Harvard, George Mason, Yale, Arizona State, Maryland and George 
Washington and we work in partnership with the National Aeronautics and 
Space Administration (NASA), the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), the Office of 
Science and Technology Policy (OSTP), the Department of the Interior 
and the Department of Agriculture. These collaborations avoid 
duplication of effort and facilities bring teams together that can 
solve issues in ways that would not be the case otherwise.

Commitment to Long-term Research and Large Scale Science Platforms

    The Smithsonian is exceptional in its ability to undertake long-
term studies that require large-scale data gathering. Research carried 
out over years and even decades is now recognized as fundamental and 
vital, both to scientific understanding and to society's ability to 
make informed policy choices about such issues as ocean conservation. 
Many ecological processes vary over extended periods--something short-
term observations may not detect. The Smithsonian has managed study 
sites for decades, obtaining valuable data on such long-term trends. 
The Smithsonian provides researchers with access to its unique network 
of scientists, collections, laboratories, field sites and past 
research. The Smithsonian also collaborates with universities and 
museums across the globe to tackle projects too complex for any one 
institution to undertake alone.

Promoting Science Literacy and Careers in Science

    Through fellowships and internships in every science unit, the 
Smithsonian mentors and trains the next generation of researchers. But 
our interaction with nascent scientists starts even earlier. The 
National Science Resources Center (NSRC) was established in 1985 
jointly by the Smithsonian Institution and the National Academies to 
improve science education in America's schools--a critical indicator of 
our nation's ability to lead in the future. NSRC improves the teaching 
and learning of science with K-12 science programs in more than 1200 
school districts representing 30% of the U.S. student population in 48 
states and more than nine countries. The Smithsonian Center for 
Education and Museum Studies (SCEMS) provides curriculum materials to 
teachers so they can incorporate museums, exhibits and collections into 
their work. SCEMS also conducts Internet webinars on various topics 
that attract 20,000 participants from across the United States and 100 
countries. More will come as the Smithsonian mobilizes its pan-
institutional educational programs, which is underway with the hiring 
of our first Director of Education, Claudine Brown, who is also here 
with me today. The Smithsonian is uniquely equipped to help with the 
important issue of scientific literacy, a growing challenge as the 
world of science moves faster and becomes ever more complicated.

National Collections

    Scientific collections are an essential component of the national 
scientific infrastructure, as documented in the 2009 report of the 
Interagency Working Group on Scientific Collections (OSTP, 2009). 
Irreplaceable and comprehensive, the Smithsonian has the richest, 
largest and most-used natural history collection on Earth. Tens of 
millions of artifacts and specimens, some as old as the Earth itself, 
serve as a baseline against which to measure change; they are a 
reference for Smithsonian scientists and those in other federal 
agencies as well as scientists around the world who study processes 
that have modified Earth and shaped the human environment. They reflect 
a legacy of more than 150 years of research, exploration, discovery and 
conservation, and they inform Smithsonian publication, education and 
exhibition. Universities have researchers, but not extensive 
collections--our collections set us apart from all other research and 
scholarly institutions.
    The Smithsonian has developed an ambitious plan to create a 
``Digital Smithsonian''--to digitize the resources of the Institution, 
including much of its collection, for the widest possible use by 
current and future generations. This will broaden access to those 
treasures, safeguard them for future generations, speed research, add 
meaning, encourage collaboration, and integrate our holdings across 
museums and programs. Our collections have been used repeatedly to 
answer basic and historical questions regarding many significant issues 
of the day. For example, regarding the impacts of the Deepwater Horizon 
oil spill, knowing what the conditions were like before the event is 
essential. The Smithsonian is committed to long-term studies of 
ecosystems and biodiversity, and the data and collections that have 
resulted can play a crucial role in situations such as that posed by 
the Gulf of Mexico oil spill.
    This spill already has been described by many experts as the worst 
man-made ecological disaster in U.S. history. The extent of the 
ecological impact, its geographic extent, and possibilities for 
remediation at this point are only estimates, not known facts. Given 
the likely economic impacts of the spill and future costs, the accuracy 
of before and after comparisons is important. The NMNH collections 
contain hundreds of thousands of specimens collected by the Department 
of Interior's Bureau of Ocean Energy Management, Regulation and 
Enforcement and others since 1974 at different depths and locations in 
the Gulf over many years.
    My staff recently estimated that fully 58% of publicly available 
specimen-based records from the Gulf of Mexico are housed at the 
Smithsonian. I would like to emphasize that many marine research 
institutions around the Gulf and elsewhere will play key roles in 
assessing damage and measuring remediation and recovery in the years 
ahead. The Smithsonian is ready to collaborate and support that work in 
any way it can.
    Other efforts in regard to responding to the oil spill include 
coordinating with the U.S. Fish and Wildlife Service to send four 
veterinarians from the National Zoo to the Gulf Region to work in 
conjunction with other federal agency vets. The vets from the National 
Zoo will work on a rotating basis for the next eight weeks; each of the 
four vets will serve for two week intervals at an incident command 
center in Houma, Louisiana in a mostly strategic basis coordinating 
relief efforts. The vets will oversee the logistics and release of 
recovering wildlife--primarily birds--from the affected region. The 
first vet, Dr. Judilee Marrow, was deployed, Sunday, July 11.

The Strategic Plan and Focus on Grand Challenges for Science

Unlocking the Mysteries of the Universe

    Since the late 1800s the Smithsonian has played a lead role in 
developing the understanding of the fundamental nature of the universe, 
dark matter and galaxy formation. The Smithsonian, particularly the 
Smithsonian Astrophysical Observatory, the National Air and Space 
Museum and the National Museum of Natural History will focus on 
applying the integrative research of their scientists to today's big 
questions regarding the origin and evolution of the Earth, planets, 
stars, galaxies, and the universe, thereby harnessing the collaborative 
energy of scientists, scholars, and cultural experts.
    Areas of specific focus will be the study of the origin and 
evolution of the Earth and solar system; the effects of geologic and 
meteoric phenomena on Earth's atmosphere and biosphere; research into 
the discovery and characterization of exo-planets in the habitable 
zone; research using our rich collections, including the national 
meteorite collection; and research into the next generation of ground- 
and space-based astronomical telescope mirrors and instrumentation that 
will enable the next generation of research.
    The Smithsonian Astrophysical Observatory (SAO) is a prime example 
of the way in which the Smithsonian collaborates with other 
organizations. SAO's partnership with Harvard University to form the 
Harvard-Smithsonian Center for Astrophysics has, since 1973, grown to 
be the most powerful astronomical observatory in the world. SAO's 
pioneering efforts in the development of orbiting observatories and 
large ground-based telescopes, in the application of computers to 
astrophysical problems, and in the integration of laboratory 
measurements, theoretical astrophysics and observations across the 
electromagnetic spectrum have contributed greatly to unveiling the 
secrets of the universe. These efforts have principally been supported 
by competitively awarded contracts and grants from NASA and NSF. From 
studying planets around other stars to charting galaxies moving at 
almost the speed of light, SAO scientists remain dedicated to the 
increase of knowledge about those physical processes that shape the 
natural world, and to the diffusion of this knowledge to the scientific 
community, to teachers and students and to the general public.

Understanding and Sustaining a Biodiverse Planet

    Research will focus on such questions as: how to sustain a 
biologically diverse Earth; how does this diversity change across 
geography and through time; and how do we better understand the life-
sustaining services of ecosystems and best sustain their contributions 
to human well-being locally and globally?
    The Smithsonian's research supports many strands of the U.S. Global 
Change Research Program (USGCRP) by providing baseline data, 
measurements and monitoring of change in the biosphere and atmosphere. 
The Smithsonian's observation and monitoring capabilities ensure a 
long-term, high-quality and high-resolution record of the state of 
natural variability and change in climate; improve our understanding of 
the natural and human-induced forces of change; and increase the 
accuracy of environmental models and projections of future conditions. 
This includes a focus on forests through the expansion and sustainment 
of the Smithsonian Institution Global Earth Observatories (SIGEO) 
network. SIGEO is a leader in the world in forming international 
partnerships involving 21 countries that have joined together to 
promote large-scale environmental monitoring and maintain banks of data 
allowing for sophisticated analyses.
    The Smithsonian is also a leader in DNA barcoding which includes 
leadership in an international initiative devoted to developing a 
global standard for the identification of biological species. The new 
technique uses a short DNA sequence from a standardized position in the 
genome as a molecular diagnostic for species identification. As the 
recognized U.S. leader in DNA barcoding, the Smithsonian seeks to 
increase its capacity in research and training. These activities 
directly support the biodiversity theme of our Strategic Plan, and also 
link to access initiatives, such as the Encyclopedia of Life and SIGEO.
    The Encyclopedia of Life, (EOL at www.eol.org) is an ambitious 
project at the National Museum of Natural History that will become a 
key repository of scientific information about virtually every form of 
life on Earth. The EOL is a Web-based, online database that has 
financial, logistical and research support from numerous partners 
including private foundations. It is expected to encompass the 1.9 
million known species of animals, plants, and other life forms in about 
ten years. The database will be configurable for all types of 
audiences, from students and scientists to policy makers and the 
general public, and is intended to allow free access to all. The NMNH 
is uniquely positioned to contribute to this global effort of 
documenting every known species currently living on Earth, through its 
extensive and broad collections as well as through the scientific staff 
who provide the context for these specimens. The specimens require 
scientific expertise to provide related ecological and evolutionary 
information.
    EOL is an unprecedented research initiative that is designed to 
broaden access to Smithsonian collections and knowledge, and share 
these resources with America and the world. It includes collaboration 
with other parts of the Smithsonian and leading institutions across the 
country and abroad. The first phase of this initiative was developed 
with support from the MacArthur and Sloan Foundations, and currently 
provides access to 180,000 species pages, as well as 20 million pages 
of literature related to biological diversity, through the Biodiversity 
Heritage Library. The next phase of this project will expand 
information to 500,000 species pages and some 50 million pages of 
literature, as well as develop resources for students and teachers 
across the Nation over the next three years.
    Another example of the Smithsonian's external collaborations is 
looking at the amphibian extinction crisis. A systematic global 
assessment of all 5,743 known amphibian species has found that one-
third of them are in danger of elimination at an alarming rate by a 
pathogen known as the chytrid fungus, according to the American 
Association for the Advancement of Science. In May of last year, eight 
institutions joined together to save amphibians from the brink of 
extinction in the eastern region of Panama--an area rich with diverse 
amphibian species. Experts from the Smithsonian's National Zoological 
Park, the Smithsonian Tropical Research Institute, Africam [sic] Safari 
Park, the Cheyenne Mountain Zoo, Defenders of Wildlife, the Houston Zoo 
and the Zoo New England have pooled their energy and resources to form 
the Panama Amphibian Rescue and Conservation Project to protect a 
number of species from complete loss. The project consists of three 
distinct and complementary parts: the ongoing operation of El Valle 
Amphibian Conservation Center in western Panama, run by the Houston 
Zoo; the Amphibian Chytrid Cure Research Program initiated at the 
National Zoo in collaboration with Vanderbilt University; and the 
construction and operation of the new Summit Park Amphibian Rescue 
Center in Panama.

The Future

    To maintain its cutting-edge research in the years to come, the 
Smithsonian needs to be attuned to where it can best contribute to 
solving complex scientific issues and adjust its unique resources 
accordingly. In the coming months, through both the strategic plan and 
deeper discussions scheduled for the Board of Regents early next year, 
these issues will be examined:

        <bullet>  Increasing capabilities for interdisciplinary 
        research.

        <bullet>  Connecting important scientific assets to create more 
        synergy.

        <bullet>  Developing a clear vision for science education, 
        which my colleague Claudine Brown will address in her 
        testimony.

        <bullet>  Addressing the national needs for scientific 
        literacy.

        <bullet>  Finding additional key partners within the federal 
        and university sectors.

    With the help of our 6,000 employees, hundreds of volunteers and 
extensive collections, and through internal and external 
collaborations, the Smithsonian strives to address important issues in 
science today, improve scientific literacy and ensure a brighter future 
for us all.
    In conclusion, thank you for this opportunity to share with you 
some of the unique aspects of the Smithsonian Institution's science 
research and the various ways in which we contribute to the world's 
understanding of complex and important issues.

                     Biography for G. Wayne Clough

    Wayne Clough is the 12th Secretary of the Smithsonian Institution, 
leading the world's largest museum and research complex with 19 
museums, nine research centers, the National Zoo and research 
activities in more than 90 countries.
    Clough envisions a new era for the 164-year-old Institution, 
expanding the Smithsonian's global relevance and helping the Nation 
shape its future through research, education and scientific discovery 
on major topics of the day. One of his first initiatives led to a new 
strategic plan that speaks to four grand challenges that will bring 
together the diverse resources of the Smithsonian's museums and science 
centers through interdisciplinary approaches.
    Ensuring that the Institution's vast collection is accessible and 
available to everyone is a priority for Clough and the new strategic 
plan. Efforts are underway to digitize much of the Smithsonian's 137 
million objects in the collection and use the World Wide Web and 
Smithsonian experts and scholars to reach out to new audiences in the 
United States and around the world.
    Since Clough began as Secretary in July 2008, he has overseen 
several major openings at the Smithsonian, including the reopening of 
the National Museum of American History, the David H. Koch Hall of 
Human Origins and Sant Ocean Hall at the National Museum of Natural 
History.
    Before his appointment to the Smithsonian, Clough was president of 
the Georgia Institute of Technology for 14 years. He received his 
bachelor's and master's degrees in civil engineering from Georgia Tech 
in 1964 and 1965 and a doctorate in 1969 in civil engineering from the 
University of California, Berkeley.
    Clough has been a professor at Duke University, Stanford University 
and Virginia Tech. He served as head of the department of civil 
engineering and dean of the College of Engineering at Virginia Tech, 
and as provost at the University of Washington.
    The Georgia Tech campus served as the Olympic Village for the 1996 
Centennial Olympics while Clough was president. Research expenditures 
increased from $212 million to $425 million and student enrollments 
from 13,000 to 18,000. More than 1.5 billion dollars was raised in 
private gifts, and campus operations were opened in Savannah, Ga., 
Ireland, Singapore and Shanghai.
    Clough completed a building program of more than $1 billion that 
incorporated sustainable design. Georgia Tech was also ranked among the 
top 10 public universities by U.S. News and World Report during his 
tenure. The publication Diverse Issues in Higher Education cited 
Georgia Tech as the top producer of African American engineers, and 
Hispanic Business magazine named the school among the top institutions 
for study by Hispanic students.
    Clough was elected to the American Academy of Arts and Sciences in 
April 2010. In March 2009, he was inducted into the Technology Hall of 
Fame of Georgia, and in February 2009, he received the Joseph M. Pettit 
Alumni Distinguished Service Award that recognizes a lifetime of 
leadership, achievement and service to Georgia Tech. In 20l2, Georgia 
Tech is scheduled to open the G. Wayne Clough Undergraduate Learning 
Commons building to honor his commitment to undergraduate students.
    Clough received nine national awards from the American Society of 
Civil Engineers, including the 2004 OPAL lifetime award for 
contributions to education. He is one of 14 civil engineers to have 
been twice awarded civil engineering's oldest recognition, the Norman 
Medal, in 1982 and in 1996. He received the George Westinghouse Award 
from the American Society of Engineering Education in 1986 for 
outstanding teaching and research. In 1990, he was elected to the 
National Academy of Engineering (NAE), and in 2008 was recognized with 
the NAE Bueche Award for his efforts in public policy. He was awarded 
the 2002 National Engineering Award by the American Association of 
Engineering Societies and in 2004 was named as a Distinguished Alumnus 
from the College of Engineering at U.C. Berkeley.
    In summer 2010, Clough received honorary Doctor of Science degrees 
from Oglethorpe University in Atlanta; University of Maryland, 
Baltimore County; and Williams College in Williamstown, Mass. He is 
also a recipient of honorary doctorates from Shanghai Jiao Tong 
University, Florida Southern College and the University of South 
Carolina.
    Clough chaired of the National Research Council Committee on New 
Orleans Regional Hurricane Protection Projects and serves as a member 
of the National Science Board. He served on the President's Council of 
Advisors on Science and Technology (2001-08) and as co-chair of the 
2004 National Innovation Initiative and University vice chair of the 
U.S. Council on Competitiveness; he chaired the Engineer of 2020 
Project for the NAE and served as a member of the National Governors 
Association Innovate America Task Force (2006-07).
    He served on the boards of Noro-Moseley Partners and TSYS Corp. as 
well as the International Advisory Board of King Fahd University of 
Petroleum and Minerals.
    Clough's interests include science, technology and higher-education 
policy, sustainability, international programs, museums and history. 
His civil engineering specialty is in geotechnical and earthquake 
engineering. He has published more than 130 papers and reports and six 
book chapters and has co-written numerous committee reports. Clough was 
born in Douglas, Ga., Sept. 24, 1941.

    Chairman Lipinski. Thank you, Dr. Clough, and I figured I 
would give you a little extra time there because you were doing 
a good job of going through exactly what you are doing, a very 
good explanation. Of course, the only thing I keep thinking, 
though, is I am going to have nightmares of that thing that you 
have sitting there in front of you as I am sitting there, 
sitting here watching you, listening to you give your 
testimony.
    But the Chair now recognizes Ms. Brown for five minutes.

STATEMENT OF CLAUDINE BROWN, DIRECTOR OF EDUCATION, SMITHSONIAN 
                          INSTITUTION

    Ms. Brown. Mr. Chairman and Members of the Subcommittee, it 
is my great pleasure to appear before the Subcommittee to 
testify about science education at the Smithsonian Institution. 
I was recently named the Director of Education for the 
Smithsonian, and prior to this I served for more than a decade 
as the Director of the Arts and Culture Program at the Nathan 
Cummings Foundation in New York City.
    This is not my first tour of duty at the Smithsonian 
Institution. I also served as the Director of the National 
African-American Museum Project and was at one time the Deputy 
Assistant Secretary for Arts and Humanities.
    Secretary Clough has made it clear that the Smithsonian 
will be focused on education. The Smithsonian has a long 
history of serving educators by providing extensive informal 
and formal education for learners of all ages. During this time 
in our history, when we are, of necessity, considering our 
world holistically, encyclopedic institutions like the 
Smithsonian are uniquely suited to help learners understand the 
connections between the sciences, the arts, and the humanities. 
We believe that the Smithsonian is essential in helping 
educators better understand and explain our complex and inter-
connected world.
    As the Director of Education, I have been tasked with the 
development of an Institution-wide plan for educational 
initiatives, the implementation of assessment strategies that 
will measure our impact on the field, and securing support for 
projects that will benefit K-12 students. In this capacity I 
will also oversee the Smithsonian's education organizations, 
and I will coordinate the efforts of 32 education-based offices 
in museums and scientific institutions throughout the entire 
museum complex.
    Currently, many of the Smithsonian museums, research 
centers, and outreach offices work with educators on both the 
local and national level to enhance the teaching of science 
through the use of our collections and our research. We assist 
school administrators with the development of strategic plans 
that lead to the implementation of research-based science 
education programs in their districts.
    We provide traditional curricula and digital teaching tools 
so that we can enhance school-based learning. We also train 
teachers throughout the country who use our curricula to teach 
science in innovative ways. We continue to be well respected 
for offering timely and engaging on-site programs that give 
educators and students direct access to primary source 
materials and expose them to concrete examples of natural 
phenomena and scientific innovations.
    One of my challenges will be to unify our many education 
initiatives and help the Smithsonian become a greater national 
resource for students and teachers, especially those who will 
never be able to participate in on-site programming on the 
Mall.
    An excellent example of the Smithsonian's ability to bring 
science literacy to learners of all ages is the research and 
programming around the National Museum of Natural History's 
Oceans Initiative. Based on extensive research in marine 
science, the Museum developed a major exhibition that reaches 
families, individuals, and school groups. There is a 
publication, ``Oceans: Our Water, Our World,'' a teacher's 
guide, and the family guide. The website, Ocean Portal, 
provides information that is available in the exhibition as 
well as current news about oceans, including stories on the 
Gulf oil spill and sustainable seafood.
    I was with a group of teachers last evening who work in 
rural communities who had just been through that exhibition, 
and they were most excited about the Portal, which would allow 
them to teach lessons in their home communities. The Portal 
also encourages members of the public to submit essays and 
share their opinions on a blog, through videos, photographs, 
and polls.
    The Smithsonian online conference on climate change also 
included research on coral reefs. More than 20,000 learners of 
all ages have participated in the Smithsonian's online 
conferences.
    The Smithsonian's museums, zoo, libraries, and scientific 
research centers offer hands-on learning experiences that can 
play an important role in transforming education in our Nation. 
The lessons that we are learning from teaching science on-site 
are rapidly being translated into digital forms that can be 
broadly disseminated. We are living in the moment when the 
convergence of the intellectual and creative capital of the 
Smithsonian Institution and the opportunities made possible by 
the digital revolution can lead to broad and engaging points of 
access for learners of all ages.
    Technology presents us with an opportunity to reshape the 
future of education. It is no longer acceptable for us to share 
only a small percentage of our 137 million specimens and 
artifacts in an age when the internet and technology have made 
it possible to share it all.
    Our job is to authenticate and inform the significance of 
the collections, not to control access to them. In doing this, 
the relevance of the Smithsonian to education can be greatly 
enhanced, as we learn--from learners--new applications for our 
scholarships.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Brown follows:]

                  Prepared Statement of Claudine Brown

    Mr. Chairman and Members of the Subcommittee -
    It is my great pleasure to appear before the Subcommittee to 
testify about science education at the Smithsonian Institution. I was 
recently named the director of education for the Smithsonian. Prior to 
this position, I served for more than a decade as the director of the 
arts and culture program at the Nathan Cummings Foundation in New York. 
Although I have been away for awhile, I am not new to the Smithsonian. 
In 1990, I was the Smithsonian's director of the National African-
American Museum Project. In this position, I coordinated the efforts of 
advisory committees that considered the role of the Smithsonian in the 
development of a national museum devoted exclusively to the 
documentation of African American life, art, history and culture. In 
1991, I was the deputy assistant secretary for the arts and humanities 
and developed policy for many Smithsonian museums. It is good to be 
back at the Smithsonian, especially at such a pivotal time in its 
history, a time when our education offerings will reach new audiences 
on the Mall in Washington, DC, throughout the country and the world.
    As early as his installation ceremony, Secretary Clough made it 
clear that the Smithsonian would be focused on education. The 
Smithsonian has a long history of serving educators by providing 
extensive informal and formal education for learners of all ages. 
During this time in our history when we are of necessity considering 
our world holistically, encyclopedic institutions like the Smithsonian 
are uniquely suited to help learners understand the connections between 
the sciences, arts and humanities. We believe that the Smithsonian is 
essential in helping educators better understand and explain our 
complex and interconnected world. The Smithsonian looks forward to 
partnering with more educators in schools and institutions of higher 
education to provide access to resources that will help prepare 
students for the future. The Smithsonian's new strategic plan 
referenced by Secretary Clough in his remarks has already begun to make 
important inroads regarding our educational outreach as we address our 
four Grand Challenges.
    As the director of education, I will be responsible for defining 
the Smithsonian's education program and will report directly to the 
Secretary. I have been tasked with the development of an Institution-
wide plan for educational initiatives, the implementation of assessment 
strategies that will measure our impact on the field and securing 
support for projects that will benefit K-12 students. In this capacity, 
I will also oversee two of the Smithsonian's educational 
organizations--the National Science Resources Center, the Smithsonian 
Center for Education and Museum Studies and hope to oversee the 
Smithsonian Institution Traveling Exhibition Service, the Smithsonian 
Associates, and the Smithsonian Affiliates program as well. I will also 
coordinate the efforts of 32 education-based offices in museums and 
science centers throughout the Smithsonian.
    Currently, many of the Smithsonian museums, research centers, and 
outreach offices work with educators on both a local and national level 
to enhance the teaching of science through the use of our collections 
and research. We assist school administrators with the development of 
strategic plans that lead to the implementation of research-based 
science education programs in their districts. We provide traditional 
curricula, and digital teaching tools so that we can enhance school 
based learning. We also train teachers throughout the country who use 
our curriculum to teach science in innovative ways. We continue to be 
well-respected for offering timely and engaging on-site programs that 
give educators and students direct access to primary source materials 
and expose them to concrete examples of natural phenomena and 
scientific innovations. One of my challenges will be to unify our many 
education initiatives and help the Smithsonian become a greater 
resource for students and teachers across the country--especially those 
who don't have the opportunity to participate in on-site programming.
    High-quality, inquiry-oriented science instruction is essential for 
effective science education programs. Museums, zoos, our 20 libraries, 
botanic gardens and other sites that offer hands-on learning can play 
an important role in transforming education in our nation. The lessons 
that we learn from teaching science in our museums and research centers 
are rapidly being translated into digital forms that can be broadly 
disseminated.
    We are living in a moment when the convergence of the intellectual 
and creative capital of the Smithsonian Institution and the 
opportunities made possible by the digital revolution lead to broad and 
engaging points of access for learners of all ages. By using new 
technology extensively, we will reach new generations and audiences and 
make it easier for them to reach us. The social networks that did not 
exist until recently such as blogs, Twitter, YouTube, Wikipedia, 
podcasts, and Web cams are quickly becoming transformative for the 
Smithsonian.
    Technology presents a new opportunity to shape the future of 
education. It is no longer acceptable for us to share only a small 
percentage of our 137 million specimens and artifacts in an age when 
the Internet and technology have made it possible to share it all. In 
addition to technology, we need to continue our focus on education 
programs--which are areas of profound strength at the Smithsonian. We 
need to make our collections, talented scholars, researchers, and 
educators accessible worldwide by providing additional platforms, 
opportunities, and creative vehicles for educating and inspiring people 
of all ages and cultural backgrounds. Our job is to authenticate and 
inform the significance of the collections, not to control access to 
them. In doing this, the relevance of the Smithsonian to education can 
be greatly enhanced as we learn from learners new applications for our 
scholarship. By focusing on these areas, we can inspire people on a 
national and international basis.
    The Smithsonian is playing a key role in advancing science 
education across the country. I would like to take a few minutes to 
highlight some of the many Smithsonian educational programs that have a 
direct impact on science education.

Smithsonian Center for Education and Museum Studies

    The Smithsonian Center for Education and Museum Studies (SCEMS) has 
made great use of technology by hosting a number of virtual 
conferences. People from around the world join Smithsonian scientists, 
curators, and educators in real time as together they explore 
Smithsonian research and collections. In addition to live interactive 
sessions, the conferences include moderated forums, demonstrations of 
educational resources and strategies, virtual exhibit hall 
presentations, podcasts, social networking, and gaming/simulations. All 
sessions are closed captioned and archived for future viewing.
    To date these conferences have included 34 hours of live 
programming, 20,000 participants from 100 countries, all U.S. states 
and territories, more than 3,000 cities, and 6 continents. Audiences 
have included K-12 teachers and students, university and community/
technical college faculty and students; librarians; congressional staff 
members; Girl Scout troops, tribal councils; and staff members of 
congressional offices and government agencies, non-governmental 
organizations, museums, corporations, as well as the general public.
    SCEMS also uses technology to take Smithsonian experts and 
collections into our nation's classrooms. Educators search by state 
standards from a database of over 1,700 educational resources on 
SmithsonianEducation.org. Teachers and their students participate in 
interactive Smithsonian online conferences--making predictions, asking 
questions, and posting ideas of their own. Students play simulations 
and games and complete community-based missions inspired by Smithsonian 
research. In Smithsonian workshops, teachers and teens create their own 
games, scavenger hunts, blogs and podcasts and share them through 
social networks. Recent topics for the Centers programs have included 
climate change, understanding spatial relations in the universe, and 
problem solving methods across disciplines.

National Science Resources Center

    As part of its mission, to insure ``the increase and diffusion of 
knowledge,'' the Smithsonian is committed to scientific literacy for 
learners of all ages. The National Science Resources Center (NSRC) was 
established in 1985 by the Smithsonian Institution and the National 
Academies to improve the learning and teaching of science for all 
students in the United States and throughout the world. To achieve the 
Smithsonian's and the Center's missions, NSRC has, for more than two 
decades, leveraged the research and expertise of the Smithsonian, the 
National Academies and other institutions to develop science education 
programs in partnership with dozens of government agencies, academic 
institutions, corporations and museums.
    The Smithsonian, through the auspices of the NSRC is committed to 
helping leaders learn how to implement a systemic approach to science 
education by connecting educators and decision makers to the vast 
resources and research of the Smithsonian Institution and the National 
Academies. NSRC programs are now in K-12 science programs in more than 
1,200 school districts representing 30% of the U.S. student population 
in 48 states as well as overseas in nine countries. More than 90% of 
the school districts with which NSRC works have made long-term 
improvements in the way they teach science, resulting in significant 
gains in student achievement.

Smithsonian Astrophysical Observatory and the Harvard-Smithsonian 
                    Center for Astrophysics

    The Smithsonian is fortunate to have a national program known as 
the Smithsonian Astrophysical Observatory (SAO). SAO's mission is to 
advance the public's knowledge and understanding of the universe 
through research and education in astronomy and astrophysics. SAO 
engages in cutting-edge research in areas ranging from small, 
individual projects to major partnerships with other government 
organizations and academic institutions. Founded in 1890, SAO is the 
largest and most diverse astrophysical institution in the world. It has 
pioneered the development of orbiting observatories and large, ground-
based telescopes; the application of computers to study astrophysical 
problems; and the integration of laboratory measurements and 
theoretical astrophysics. Observational data are gathered at SAO's 
premier facilities including the Sub millimeter Array (SMA) observatory 
on Mauna Kea Hawaii.
    The Harvard-Smithsonian Center for Astrophysics (CfA) brings the 
resources and research facilities of the Harvard College Observatory 
and the Smithsonian Astrophysical Observatory under a single director 
to pursue studies of basic physical processes that determine the nature 
and evolution of the universe. CfA is involved in many aspects of 
education and public outreach, from major museum exhibits to curriculum 
development to education research. CfA's Science Education Department 
is a leadership organization that provides professional development in 
astronomy and basic science for teachers and curricula for grades K-12.

Smithsonian Environmental Research Center

    Established in 1965, the Smithsonian Environmental Research Center 
(SERC) is the leading national research center for understanding 
environmental issues in the coastal zone. The site encompasses 3,000 
acres of land and 14 miles of protected shoreline on the Chesapeake Bay 
that serve as a natural laboratory for long-term ecological research. 
The unique location provides valuable opportunities to study the 
interactions of aquatic, terrestrial and atmospheric components of 
complex landscapes. Through interdisciplinary, experimental research, 
SERC scientists are working to understand how ecosystems interact and 
are linked in this critical zone where the land meets the sea, and how 
physical and chemical processes sustain life on Earth.
    Education and outreach are major components of the Smithsonian 
Environmental Research Center (SERC). SERC offers a broad array of 
opportunities for people of all ages to learn about the ecology of the 
Chesapeake Bay area and to increase their appreciation for the 
environment. SERC offers on-site K-12 programs, distance learning, 
public programs and professional training.
    SERC has been a prime location for groups to get hands-on 
experience with environmental science and ecology. Recently, SERC has 
dramatically increased its efforts to educate a larger population about 
the Bay and its watershed by providing distance learning and web-based 
education programs for K-12 students and adults. These new programs are 
designed to complement, not replace, the existing hands-on education 
programs, by expanding our reach and offering students nationwide an 
opportunity to learn about an important ecosystem, and visit behind the 
scenes at SERC where conventional visitors are unable to go. Geographic 
distance, cost, and limited time can prevent members of the public, 
especially schoolteachers and students, from making the trip. 
Communication technologies developed for distance learning, however, 
have connected students and teachers from across the country to 
Smithsonian scientists who study the Chesapeake Bay and its watershed. 
SERC's Education Program is committed to broadening society's 
understanding of the environment, communicating an awareness of how 
human activities influence ecosystems, and training future generations 
of environmental scientists.

Smithsonian Tropical Research Institute

    The Smithsonian Tropical Research Institute (STRI) in Panama is 
dedicated to fostering a greater understanding of biological diversity 
issues. The training of future generations of tropical biologists has 
been identified as a priority among the goals for scientific excellence 
in STRI's strategic plan. Fellowships are the primary goal of 
scientific training at STRI, but other strategies include internships, 
field courses, seminars and workshops. STRI in collaboration with 
McGill University developed an interdisciplinary and inter-
institutional graduate program based in Panama. Recently, the 
Smithsonian joined Arizona State University in an innovative education 
and science partnership aimed at sustaining a biodiverse planet. The 
partnership will create opportunities for ASU undergraduates, graduate 
students and faculty to participate in fieldwork at Smithsonian 
facilities in Panama, as well as for the development of virtual global 
classrooms that center on current research in tropical ecosystems. 
Smithsonian scientists will also participate in ASU degree programs.

Smithsonian Conservation Biology Institute

    The Smithsonian Conservation Biology Institute (SCBI) is a program 
of the Smithsonian's National Zoological Park. It is one of the world's 
most extensive programs of conservation biology research. SCBI works 
directly with teachers, students, and their parents to develop 
awareness of and appreciation for the need to preserve biodiversity at 
home and abroad. Hands-on methods of teacher training and student 
involvement in conservation education are used at SCBI. National Zoo 
staff and research associates have offered training courses in the 
United States and at more than 20 international locations on a variety 
of topics for over three decades. During this time, more than 5,000 
individuals from more than 85 countries have taken part in such 
efforts.
    In October 2008, the Smithsonian and George Mason University 
created a new, comprehensive academic program, the Smithsonian-Mason 
Global Conservation Education Program. This new program incorporates 
multidisciplinary faculty from the Zoo's Center for Conservation 
Education and Sustainability and George Mason University's Center for 
Conservation Studies and will train students to help avert and treat 
the looming biodiversity crisis. The program will provide academic 
opportunities for as many as 50 undergraduate students per semester, 
and an additional 60 professional or graduate students.

National Air and Space Museum

    The National Air and Space Museum (NASM) offers a variety of free 
educational programs for school groups and organized youth groups. The 
museum has developed teaching posters and guides for students in grades 
K-12 that will advance their knowledge of science and technology. Areas 
of focus for curricula include: Living and Working in Space, which 
introduces students to the environmental conditions in space, the 
challenges that must be overcome to live and work there, and advances 
in spacesuit technology; Embracing The Impossible: Popular Response to 
the Aerial Age exposes students to primary source materials that help 
them understand how people felt about the new technology of flying in 
the early 1900s; Reflections on Earth: Biodiversity and Remote Sensing 
includes lessons for interpreting satellite images and field studies; 
Students learn to measure and monitor forest biodiversity on a local, 
regional, and global scale; and Destiny in Space is a guide that 
examines our future prospects for space exploration. NASM's activities, 
information, and resources cover a range of topics including: muscle 
response to weightlessness, robotic guides, suiting up for space, 
communication and gardening in space.
    Students may also interact with the National Air and Space Museum 
without leaving the classroom! The museum offers Interactive 
Videoconferencing programs featuring the museum's staff and docent 
volunteers. NASM also offers Electronic Field Trips (two-way distance 
learning interactions) as well as occasional webcast educational 
programs. Use of the unique National Air and Space Museum collection 
and the universally-engaging nature of aviation and space make these 
programs relevant and exciting. These interactive electronic 
experiences augment teacher lesson plans.

National Museum of Natural History

    As one of the largest science classrooms in the world, the National 
Museum of Natural History supports the work of teachers who seek to 
explore the natural world through the Museum's exhibits, and online 
resources. The Museum's work is built on a foundation of scientific 
research by the Museum's staff of over 150 scientists and curators as 
well as the national and international community of scientists. There 
are more than 126 million artifacts and specimens in its collections. 
The Museum provides both field-trip-related and non-field-trip-related 
lesson plans, web-based activities for students, and other resources 
that can help teach a range of science and natural history topics.
    A visit to exhibitions such as the O. Orkin Insect Zoo and the 
Butterfly Pavilion bring the natural world up close and personal with 
the opportunity to interact with living creatures. Venues such as the 
Discovery Room and the Naturalist Center offer a hands-on approach to 
learning, using artifacts and specimens from the Museum's collections 
to make science and scientific processes real. The museum's goal is to 
educate and inspire the next generation and encourage respect for the 
natural world. The museum's programs are designed to address these 
goals. Two of its key professional development programs are Dig it: 
Secrets of Soil and Project Archaeology: Investigating Shelter-
Archaeology of the Colonial Chesapeake. Lesson plans cover such topics 
as Measuring Biodiversity Across North America, Anthropology, 
Ecosystems, and Lewis and Clark as Naturalists.

National Zoological Park (NZP) and Friends of the National Zoo (FONZ)

    The Smithsonian's NZP and FONZ offer a wide variety of programs, 
resources, internships and volunteer opportunities for students of all 
ages. Each year thousands of school groups, individual students, and 
teachers use the Zoo as a living classroom. They come to gain a better 
understanding of the natural world in which we live, to enjoy beautiful 
animals in an outdoor oasis, and to engage in exciting, hands-on 
science. On average, the National Zoo reaches 5,800 DC students and 
trains 75 teachers in workshops each year. Uncounted thousands more 
students enjoy the Zoo during field trips. There are many exciting 
programs at the Zoo that teach about science for example, Bridging the 
Americas/Unidos por las Aves is a cross-cultural environmental 
education program that partners elementary and middle school classes in 
the DC Metro area with classes in Latin America and the Caribbean. 
Partnered classes learn about the migratory birds that connect these 
two regions of the hemisphere. The program is designed to instill an 
appreciation for migratory birds and the need to protect the habitats 
they depend on throughout the year, as well as to stimulate an interest 
in learning about other countries and their cultures. Teachers are 
provided with content, materials, and support that enable them to use 
birds as a theme for teaching required standards and beyond in multiple 
subject areas.

Smithsonian Institution Traveling Exhibition Service

    In its nearly 60 years of delivering Smithsonian exhibitions to 
museums and science centers across the nation, SITES has devoted fully 
one third of its program to science. From projects that bring North 
American visitors close to the wonders of the tropical rainforests in 
the southern hemisphere to tracking the elusive giant squid, the work 
of Smithsonian scientists and researchers is always on exhibit 
somewhere in the United States. SITES exhibitions invite its audiences 
to explore anthropology, astronomy, biology and environmental studies, 
entomology, geology, paleontology, ichthyology, oceanography, polar 
studies, vertebrate biology and veterinary studies. Current offerings 
include a close-up look at the fascinating world of ants, satellite 
images of Earth seen from space, insights into the scientific research 
at McMurdoe Station in Antarctica and x-rays of spacesuits along with 
rarely exhibited astronaut gear. Future projects include an interactive 
exhibition about diseases that pass from animals to humans and back 
again and a careful assessment of invasive species.

The Smithsonian Associates

    The Smithsonian Associates (TSA) provides science education as a 
part of GEAR UP through the U.S. Department of Education. Gaining Early 
Awareness and Readiness for Undergraduate Programs (GEAR UP) encourages 
middle and high school students to consider pursuing higher education. 
GEAR UP is a federal program that grants funding to states and 
partnerships that provide programs and services for increasing low-
income students' preparation for postsecondary education. GEAR UP 
programs serve cohorts of students before they begin seventh grade and 
supports them through high school.
    TSA is working with the Lafayette Parish School System in Louisiana 
on a six year effort to engage teachers and students from 6th to 12th 
grade in science learning. Smithsonian scholars will deliver 11 
programs for the duration of the GEAR UP grant. TSA's upcoming informal 
science education programs include: Time and the Brain; Our 
Asymmetrical, Imperfect and Gloriously Messy Universe; Northern Lights; 
A Message from the Sun; and Dark Matter and Dark Energy: Cutting-Edge 
Findings.
    Thank you for giving me the opportunity to testify. I look forward 
to working with the committee and Members of Congress in providing the 
Smithsonian's insight, experience and expertise regarding science 
education. I know that the Smithsonian can continue to play an 
important role as a resource for change in the current science 
education paradigm. I would be pleased to answer any questions you 
might have.

                      Biography for Claudine Brown

    Claudine Kinard Brown began her professional career as an art and 
drama teacher in New York City Public Schools. In 1976 she joined the 
staff of the Brooklyn Museum where she served for thirteen years in 
several capacities. She began her career in Brooklyn, as a museum 
educator. In 1984 she served as Manager of School and Community 
Programs and in 1985 she became the Museum's Assistant Director for 
Government and Community Relations.
    Brown left the Brooklyn Museum in 1990 to direct the Smithsonian 
Institution's initiative to create a National African American Museum. 
Her responsibilities included: conducting a needs assessment, 
developing a vision statement and program plan, and opening a Center 
for African American History & Culture pending passage of authorizing 
legislation to create a museum. In 1991, she added to her 
responsibilities by concurrently assuming the position of Deputy 
Assistant Secretary for Museums. She developed policy for 13 national 
arts and humanities museums, and reviewed their long-range plans and 
assisted in prioritizing institution-wide budget requests, which were 
presented to Congress.
    Brown was the Director of the Arts and Culture Program at the 
Nathan Cummings Foundation from 1995 to 2010. Over the course of 
fifteen years she developed funding initiatives that have strengthened 
and stabilized community-based arts institutions. Beginning in 2001, 
she worked to build the field of practitioners and funders who are 
committed to art and community building, art and social justice and art 
and civic engagement. She is a co-founder of the Art and Social Justice 
Funders Working Group and she has supported efforts to research, map 
and document the work of the field.
    In 2010 she became Director of Education for the Smithsonian 
Institution. As the director of education, Brown will be responsible 
for defining the Smithsonian's education program and will report 
directly to Smithsonian Secretary Wayne Clough. She will develop an 
Institution-wide plan for educational initiatives, assessment 
strategies and funding for students in the K-12 range. Brown will 
oversee five of the Smithsonian's educational organizations--the 
National Science Resources Center, the Resident Associates, the 
National Affiliates, the Smithsonian Institution Traveling Exhibition 
Service and the Smithsonian Center for Education and Museum Studies--
and coordinate the efforts of 32 education-based offices in museums and 
science centers.
    Claudine K. Brown has served on several nonprofit boards, including 
the American Association of Museums, the National Museum of African 
American History and Culture Plan for Action Presidential Commission, 
the Association of Black Foundation Executives and as President of the 
Board of Grantmakers in the Arts. She has taught graduate courses in 
the Arts Administration program at New York University, and the Museum 
Leadership Program at Bank Street College. Claudine Brown has a 
Bachelor of Fine Arts degree from Pratt Institute, a Masters of Science 
degree in Museum Education from Bank Street College and a Doctor of 
Jurisprudence degree from Brooklyn Law School.

    Chairman Lipinski. Thank you, Ms. Brown.
    I turn now to Dr. Bermingham.

     STATEMENT OF ELDREDGE ``BIFF'' BERMINGHAM, DIRECTOR, 
     SMITHSONIAN TROPICAL RESEARCH INSTITUTE, SMITHSONIAN 
                          INSTITUTION

    Dr. Bermingham. Thank you, Chairman Lipinski, Dr. Ehlers, 
Mr. Baird, and Members of the Subcommittee for the opportunity 
to provide testimony today. You are all invited to STRI in 
Panama, announced or unannounced.
    My name is Biff Bermingham. I am the Director of the 
Smithsonian Tropical Research Institute or STRI. I have been at 
STRI for 20 years, first as a staff scientist, during which 
time I published more than 140 articles and books on tropical 
bio-diversity. For the past seven years I have served as Deputy 
Director and now Director of STRI. I am responsible for 40 
Ph.D. staff and 350 technical staff.
    Located in the Republic of Panama, STRI is the only bureau 
of the Smithsonian Institution located outside the United 
States. We serve as custodians for the Barro Colorado Nature 
Monument, which sits in the middle of the Panama Canal. The 
monument is the only mainland tropical forest reserve in the 
world under U.S. stewardship.
    This year, we begin celebrations of 100 years of 
Smithsonian science on the Isthmus of Panama, a history tracing 
back to the 1910-1912 Smithsonian expeditions to Panama--
authorized by President William H. Taft--to provide data on 
tropical biological diversity in light of the Panama Canal 
construction effort. Tropical diseases and their insect vectors 
defeated the French in their effort to construct a canal across 
Panama, and the Smithsonian expedition aimed to provide 
detailed biological understanding of tropical bio-diversity to 
ensure U.S. success.
    With laboratories on both coasts of Panama, STRI is the 
only institute in the Americas providing direct research access 
to both the Pacific and Atlantic Oceans. The recurring two-
ocean theme in science education and marine science at STRI has 
resulted in landmark studies of the evolution and ecology of 
tropical marine species and communities, as well as research 
funded by the National Science Foundation and National 
Institutes of Health for ecologically-guided discovery of novel 
pharmaceutical compounds.
    Immediate access to two oceans makes STRI a critical U.S. 
resource for studying the impact of climate change and ocean 
acidification on near-shore coral reefs, sea grasses, and 
mangroves.
    And given the Gulf oil spill, it is worth noting that the 
first ever study of the impact of an oil spill in tropical 
marine ecosystems was financed by the Mineral Management 
Services and carried out at STRI more than 20 years ago.
    The STRI mission is superbly well-aligned to the 
Smithsonian grand challenge ``Understanding and Sustaining a 
Bio-diverse Planet.'' This challenge requires integrating 
information across different biological scales and different 
fields of scientific inquiry.
    Towards this end, STRI administers the Smithsonian 
Institution Global Earth Observatories, or SIGEO, a global 
network of 40 large-scale forest plots in 21 countries. The 
first observatory in the network was established 30 years ago 
at STRI, and the forest survey methodology we developed was 
unprecedented in scale and scope. Over the years the standard 
census methods developed at STRI to address complex questions 
about tropical biodiversity have also proved to be a powerful 
approach to studying the impact of global climate change on 
forest ecosystems. To date we have made more than 11 million 
measurements representing 8,500 tree species around the world.
    Given scientific uncertainty and the importance of new 
research regarding forest response to climate change, the 
network is expanding rapidly. In the United States alone, and 
supported by a $1.25 million increase to the Smithsonian fiscal 
year 2010 budget, we have added new forest plots in Maryland, 
Virginia, Wisconsin, Washington, California, and Hawaii. More 
than 200 university and government scientists have published 
research based on results from the Smithsonian Forest 
Observatories. This week's cover article in Science, our 
Nation's premiere science magazine, is a recent, high-profile 
example of the critical importance of long-term data for 
understanding a forest change through time.
    As we look to the future, forest remediation in the 
developing world will take on increasing prominence as we 
consider food and water security and human migration associated 
with landscape degradation and sea level rise. Research and 
science education in this light is critical, a need that the 
Smithsonian is addressing with the Panama Canal Watershed 
Experiment. This experiment will run for at least 25 years and 
is designed to be a global example for understanding the 
relationship between land use decisions, climate change, and 
biological diversity. It is a powerful example given the 
impressive list of ecosystem services provided by the Panama 
Canal watershed. To name just a few, regulation of water supply 
to the canal in order to reduce risk of flooding and 
infrastructure damage while ensuring sufficient water to 
operate the locks; avoided deforestation, reforestation, and 
carbon sequestration, which couple to represent an important 
research agenda for the United Nations Framework Convention on 
Climate Change; provision of habitat for endangered species; 
and regulation of disease vectors.
    STRI has recently been awarded a $3.8 million National 
Science Foundation International Partnership in Research and 
Education grant to study new fossils and geology exposed by the 
excavations of the multi-billion dollar expansion of the Panama 
Canal. This massive excavation provides researchers an 
unparalleled opportunity to strengthen our understanding of the 
role the Isthmus of Panama has played with regard to climate 
and bio-diversity change through time, and a unique perspective 
on how increasing carbon dioxide levels may shape the forests 
of the future.
    In closing, I cannot emphasize enough the importance of the 
Smithsonian's commitment to long-term research and education. 
With our research perspective, sustained effort, and long-term 
data sets and educational assets, we are uniquely positioned to 
assess, identify, understand, and predict environmental threats 
to bio-diversity and incorporate rigorous science into resource 
management and stewardship decisions.
    Thank you very much.
    [The prepared statement of Dr. Bermingham follows:]

               Prepared Statement of Eldredge Bermingham

Introduction

    Thank you, Chairman Lipinski and distinguished members of the 
Subcommittee for the opportunity to provide testimony today. My name is 
Eldredge Bermingham. I am the Director of the Smithsonian Tropical 
Research Institute, or STRI, located on the banks of the Panama Canal 
in the Republic of Panama, the only bureau of the Smithsonian 
Institution located outside the United States. I hold a Ph.D. degree in 
Genetics. I have spent 20 years guiding molecular genetics research 
programs at STRI and have published more than 140 scientific articles. 
For the past seven years I have served as Deputy Director and now 
Director of STRI, where I oversee about 40 Ph.D. scientists and 350 
technical staff. I participate on the Smithsonian's steering committee 
for its Marine Science Network, and on Secretary Clough's strategic 
planning teams responsible for the 2010-2015 Strategic Vision for the 
Smithsonian. I have played the lead role over the past five years 
transforming the Center for Tropical Forest Science that began in 
Panama more than thirty years ago into the pan institutional 
Smithsonian Institution Global Earth Observatories (SIGEO). SIGEO is a 
global network of 40 large-scale forest dynamics plots in 21 countries. 
The network is a U.S.-led resource that investigates forest dynamics 
and the response of forests and the ecosystem services they provide--
carbon storage, water provision and biodiversity conservation--to 
climate change. National and international science education, training 
and capacity building are core missions of STRI and SIGEO.
    My purpose today is to use my experience at STRI to summarize the 
main themes and importance of post-secondary STEM education at the 
Smithsonian. At STRI we host more than 1000 visiting undergraduate, 
graduate and postdoctoral researchers. Our approach is to partner 
outstanding scientists with outstanding young scholars. At STRI, we 
apply state-of-the-science technologies to understand the nature and 
origins of biodiversity, the causes and consequences of climate change, 
the interconnectedness of global ecosystems, and the cultural heritage 
of Native American peoples. We mix the necessary, more traditional 
long-term measurement and observations about the natural world with 
innovative, new analytic techniques and approaches. At each of the 
science research units at the Smithsonian the contribution to training 
the next generation of scientists is impressive and the Institution is 
recognized at the national and international level for producing 
scientific leaders. Outstanding examples include education in tropical 
biology (STRI), astronomy and astrophysics (Smithsonian Astrophysical 
Observatory), species survival biology (National Zoological Park), 
biodiversity (National Museum of Natural History) and invasive species 
biology and coastal zone processes (Smithsonian Environmental Research 
Center). And the Smithsonian partners with the National Academy of 
Sciences to develop award-winning science curricula through the 
National Science Resources Center. We are a remarkable U.S. resource 
responsible for training the next generation of scientists.

    Background:
    What has made STRI such an important resource for educating the 
next generation of scientists? The answer is long-term federal 
investment in world-class resident scientists supported by superb 
research facilities located adjacent to tropical forests and coral 
reefs. This year, 2010, the Smithsonian marks a century of research in 
Panama, tracing back to the 1910-1912 Smithsonian Expeditions to Panama 
authorized by President William H. Taft. From the humble beginning of a 
single research station on Barro Colorado Island (BCI) located in the 
middle of the Panama Canal, STRI has developed dramatically. STRI is an 
international focal point for scientists and students interested in the 
ecological and evolutionary processes that underlie the extraordinary 
biological diversity of rain forest and coral reef ecosystems. These 
processes are palpable on an isthmus that formed three million years 
ago and transformed our planet by joining the continents of South and 
North America, and separating the Caribbean Sea from the Eastern 
Pacific Ocean. Long-term environmental research is a STRI trademark, 
more than eighty years in the case of the forests on Barro Colorado 
Nature Monument (BCNM), protected under the terms of the Convention on 
Nature Protection and Wildlife Preservation in the Western Hemisphere, 
ratified by the U.S. Senate in 1941. The BCNM is the only mainland 
tropical forest reserve in the world under U.S. stewardship.
    The long-term research conducted by STRI scientists, collaborators 
and students is a critical contribution to the Smithsonian 
Institution's 2010-2015 strategic plan ``A Smithsonian for the Twenty-
First Century'' set forth in 2009, particularly through its 
contributions to the Grand Challenge, Understanding and Sustaining a 
Biodiverse Planet, but STRI also contributes through its Paleontology 
program to Unlocking the Mysteries of the Universe, and through its 
Anthropology and Archeology programs to Valuing World Cultures. As 
noted in the Smithsonian's strategic vision, the importance of long-
term assessment and analysis of forests and ecosystem function in a 
world marked by significant biodiversity loss and climate change led to 
the establishment of the BCI 50 hectare forest plot in 1980, a model 
that has now been replicated at 40 sites around the world including six 
in the United States providing an innovation platform for new 
observation technologies.
    With laboratories on both coasts of Panama, STRI is the only 
institute in the Americas providing direct research access to both the 
Pacific and Atlantic oceans. The two-ocean stage provided by STRI 
marine facilities permits scientists and their students to move between 
experiments in the eastern Pacific and Caribbean in a few hours, and 
represents a principal component of the Smithsonian Marine Science 
Network extending from the Chesapeake to Florida, Belize and Panama. 
The recurring two-ocean theme in marine science at STRI has resulted in 
landmark studies of the evolution and ecology of tropical marine 
species and communities, as well as research funded by the National 
Science Foundation (NSF) and the National Institutes of Health (NIH) 
for ecologically guided discovery of novel pharmaceutical compounds, 
and research funded by the U.S. Department of Agriculture (USDA) for 
discovery of novel agrochemicals from nature. Marine facilities with 
easy access to two oceans take on increased importance as an 
experimental platform for studying the impact of climate change and 
ocean acidification on near shore coral reefs, sea grasses, and 
mangroves.
    In addition, BCI and STRI represent important facility resources 
for other federal agencies, and serve as the base for tsunami 
monitoring equipment installed by the U.S. Geological Survey; and as 
sites to monitor mosquitoes and their role as disease vectors by the 
Environmental Protection Agency, or survey wildlife that could be 
carriers of avian influenza and other animal-borne diseases in projects 
funded by NIH.
    Thus extraordinary science facilities, the unique geography of 
Panama and the country's long-term and strongly positive association 
with the United States, and a world-class group of 40 resident 
scientists has led STRI to play a key role in the education of tropical 
biologists. It is fair to say that nearly all tropical biologists pass 
through STRI at some point in their careers--many in the formative 
stages of their development.

Science/Technology/Engineering/Math Education at STRI--General:

    STRI's research excellence is a function of our ability to attract 
and nurture the best and brightest young researchers. Indeed, 
supporting and training promising young scholars is a cornerstone of 
STRI science and builds our capacity to understand a biologically 
diverse planet and solve Earth's most challenging environmental 
problems. STRI actively participates in science, technology, 
engineering and math (STEM) training: directly by supporting interns, 
Ph.D. students and postdoctoral scholars, and indirectly by partnering 
with universities concerned with tropical research and education. Both 
education avenues foster transformational science by connecting 
researchers and students with diverse backgrounds, experiences and 
skills. STRI also partners with institutions in Panama to develop STEM 
training for Panamanian students at our facilities.
    Education at STRI is strongly assisted by mentors of exceptional 
ability. The relevance, quality, and performance of STRI scientists as 
mentors of the next generation of tropical biologists is top tier, as 
evaluated by a Visiting Committee of outside experts. In a recent 
review, the Visiting Committee used National Research Council criteria 
to measure the productivity and impact of STRI science compared to 142 
of the best university research departments in the United States; STRI 
scientists ranked first in all measures of scientific relevance (e.g., 
publication citations), quality (e.g., scientific honors), and 
productivity (e.g., publication numbers). Furthermore, the number of 
young scientists who choose STRI as the base for their graduate and 
postgraduate research training provides an annual measure of the 
relevance and quality of STRI science to the future of tropical biology 
and policy. 2009 marked the fifth year in a row that the number of 
visiting scientists and students choosing to base their research at 
STRI has increased, from the previous year, to the point that STRI now 
participates in the training of more than 1000 scientists annually.
    The extraordinary hallmark of STEM education at STRI is the mentor-
directed research training provided at the undergraduate level to 
research interns, and at the graduate level to Master's and Ph.D. 
candidates, and to postdoctoral researchers carrying out independent or 
collaborative research. Over the past five years NSF grants have 
directly supported 81 undergraduate students, 97 graduate students and 
a remarkable 71 postdoctoral scholars at STRI facilities. For the same 
period 57 university faculty spent time at STRI on NSF-supported 
research.
    The numbers that I have provided for NSF-associated scholars are 
exceeded by the numbers in each category of young investigators 
supported by Smithsonian funds, non-NSF grants and contracts and 
donations. For example, we received a $1.5 million dollar donation from 
a private citizen to fund three five-year postdoctoral positions in 
tropical neurobiology. The idea behind the donation is to use the 
remarkable biological diversity found in the tropics to inform new 
approaches to nanotechnology by understanding how insects carry out 
complex behaviors as brains decrease over evolutionary time to very 
small sizes. In 2007, we received an $8 million dollar grant from the 
Hong Kong Shanghai Bank (HSBC) to establish a regional training center 
at SERC in Maryland in collaboration with the environmental 
organization Earthwatch Institute in order to promote science education 
and citizen involvement in climate change science. The HSBC grant funds 
citizen scientists, undergraduate research interns, graduate students 
and postdoctoral researchers to study how climate change impacts carbon 
fluxes across SIGEO forest dynamic sites in Maryland and Virginia as 
well as across companion training centers located in Brazil, United 
Kingdom, China and India.
    To provide a sense of the resonance associated with the educating 
of scientists at STRI, it is useful to highlight the experience of Dr. 
Phyllis Coley, a Ph.D. student at STRI in the 1980s. Dr. Coley went on 
to a career as professor of biology at the University of Utah, and then 
supported by NSF continued her groundbreaking studies of herbivory and 
plant defenses in the field in Panama. In the late 1990s Dr. Coley's 
insights into chemically mediated plant defenses led her to develop a 
Panama International Cooperative Biodiversity Group (ICBG) grant. The 
ICBG program is a unique effort that addresses the interdependent 
issues of biological exploration and discovery, socioeconomic benefits, 
and biodiversity conservation. Dr. Coley was successful with her 
application and the Panama ICBG is now in its third round of funding by 
NIH, NSF, and now includes funding from USDA as well. Twelve years 
later the program has trained 21 students--including 10 Ph.D.s and 2 
MD's--representing 19 U.S. universities. The program has also educated 
135 Panamanian students and 15 young investigators from other nations 
in the study of ecology and natural products chemistry. But the true 
resonance comes from the fact that four recent Panama ICBG Ph.D.s and 
postdoctoral researchers are continuing with their Panama-based 
research as beginning faculty in departments of Chemistry or 
Pharmaceutical Sciences at the University of California, Santa Cruz, 
University of Connecticut, York College of Pennsylvania and Oregon 
State University.
    STRI also maintains robust partnerships with a number of 
universities that offer degree-granting, semester-abroad, capstone or 
collaborative research programs. These partnerships provide students, 
teachers, and policy makers with an up-close and personal experience 
with biological diversity at our field stations across Panama, and an 
increased understanding of global threats to tropical ecosystems. To 
provide some numbers, in the past five years alone STRI has hosted 43 
U.S. universities offering 65 different courses in tropical biology and 
anthropology. These courses have utilized STRI facilities, STRI staff 
scientists and the knowledge of the tropics gleaned across a century of 
study to educate 825 undergraduate students. Princeton University has 
run a semester abroad at STRI every year since 1998. Courses range from 
forest ecology, marine ecology, tropical evolution, tropical 
conservation, tropical landscape ecology, tropical paleontology, 
Mesoamerica anthropology and archeology, conservation genetics and 
tropical environmental policy. Courses are typically run from STRI 
facilities at our Gamboa campus and BCI in the midst of tropical 
lowland forest, and our Bocas del Toro marine laboratory adjacent to 
mangrove, sea grass and coral reef ecosystems, in addition to a 
tropical cloud forest field site at La Fortuna and archeological 
excavations at Cerro Juan Diaz and El Cano.

STEM Education at STRI--The SIGEO model:
    A major goal of the 2010-2015 strategic plan for the Smithsonian is 
headlined ``Crossing Boundaries,'' which refers to the implementation 
of interdisciplinary consortia aimed at sparking innovative research 
and education programs, and brokering partnerships. These consortia are 
being established in recognition of the fact that solving the grand 
challenge of Understanding and Sustaining a Biodiverse Planet requires 
integrating information across different biological scales (i.e. from 
cells to individuals to ecosystems) and different fields of scientific 
inquiry. Key to these challenges is training scientists to: 1) work 
comfortably across research disciplines and biological scales, 2) 
interact synergistically, 3) incorporate new and innovative 
technologies, and 4) participate in larger national and international 
collaborations.
    Presently, SIGEO is the best example of an interdisciplinary center 
and boundary-crossing training opportunities at SI. Global climate 
systems and life on the planet are in flux. Policy-makers and 
scientists need long-term data on the fluctuations in primary 
productivity of forests around the globe, as well as changes in the 
abundance and distribution of biological diversity, to distinguish the 
components of global change that can be ascribed to planetary processes 
from those that may be caused by human activity. The Smithsonian 
Institution is building on its unique research and science education 
infrastructure to provide the required data by expanding its global 
network of long-term tropical forest dynamic plots into the temperate 
zone and by collecting additional data on vertebrates, insects and soil 
microorganisms, in addition to the trees that we have monitored for 
three decades. It is the students being educated by the Smithsonian 
that will answer the following questions: Does climate change 
significantly alter forest biomass, and does the rate of carbon 
sequestration by forests vary with latitude, hydrological condition and 
soil fertility? How are the diversity and the relative abundance of 
forest organisms changing over time and space? What components of 
observed changes are due to human activities? How can we modify our 
behavior and economies?
    SIGEO promotes large-scale environmental monitoring and maintains 
enormous banks of data and metadata, which help galvanize advanced data 
networks and sophisticated analyses, extending from single forest plots 
to the remote sensing of forests at landscape scales monitored from 
space-based observatories. The result--big data sets, global 
comparisons and research and policy opportunities to investigate the 
impact of climate change on forest function--attract top-caliber 
students and provide extraordinary opportunities in science education. 
Thus it is little wonder that students attracted to the long-term data 
of SIGEO go on to big things. Dr. Helene Muller-Landau, for example, 
went on from her Princeton University Ph.D. dissertation research on 
seed dispersal and community dynamics of the BCI SIGEO forest plot to a 
position as an Assistant Professor at the University of Minnesota. In 
quick turn, Dr. Muller-Landau was honored with an $875K Packard 
Fellowship for Science and Engineering--one of 16 new faculty members 
selected out of 100 national nominees by university presidents across 
the U.S. Dr. Muller-Landau is now the lead scientist for the SIGEO 
Global Forest Carbon Research Initiative.
    The Global Forest Carbon Initiative provides in situ measures of 
above- and below-ground carbon and its change over time in response to 
rising levels of carbon dioxide. Two recent and high profile 
publications by young scholars associated with the SIGEO network 
provide direct evidence of the quality of science education based from 
the network. In the first study a Ph.D. student using 25 years worth of 
data from two forest plots (BCI, Panama and Pasoh, Malaysia) has shown 
that, despite increased atmospheric carbon fertilization, the growth 
rates of trees have decreased in at least some tropical forests, 
perhaps in response to global warming. On the other hand, research led 
by a SIGEO postdoctoral investigator using 30 years of data on long-
term changes in species survival and growth in mapped plots of tens of 
thousands of trees at SERC on the Rhode River in Maryland, has 
demonstrated that that the rate of carbon sequestration is increasing 
in the Maryland sample of temperate forests. These two studies 
demonstrate the need for objective long-term data, and the utility of 
the global network of forest plots to provide opportunities for 
educating scientists and for the critical empirical data needed for 
modeling carbon dynamics and directly measuring the response of global 
forests to environmental change. Young scholars play a direct role in 
the network's overall aim to forecast the consequences of global 
climate change on forest function and biodiversity in tropical and 
temperate forests, and to provide objective and rigorous scientific 
data quickly via the World Wide Web to scientists, policy makers, and 
people around the world.
    It is worth emphasizing that students and scientists like Dr. 
Mueller-Landau play a major role for STRI and SIGEO in directly 
supporting U.S. government goals in the environmental sciences. Such 
activities send an international message regarding the U.S. commitment 
to the provision of objective, long-term data needed for understanding 
the consequences of climate change. As one of the premier U.S.-led 
international partnerships, SIGEO integrates the SI network of forest 
dynamics plots with the U.S. Group on Earth Observations (USGEO), and 
promotes an international Global Earth Observation System of Systems 
(GEOSS) to further advance the progress of science and science 
education across borders. In the context of Global Earth Observatories, 
the Smithsonian collaborates with the Environmental Protection Agency 
(EPA), United States Geological Survey (USGS), U.S. Department of 
Agriculture (USDA) Forest Service, the National Oceanic and Atmospheric 
Administration (NOAA), the National Aeronautics and Space 
Administration (NASA), and NSF's National Ecological Observation 
Network (NEON). NEON and SIGEO sites are co-located in Virginia/
Maryland (Smithsonian Conservation Biology Institute/SERC), the Harvard 
Forest, MA, and the Wind River Experimental Forest, WA, providing a 
tremendous opportunity for cross-fertilization and synergy between the 
two earth observation networks.
    Moreover, SIGEO extends globally beyond the Smithsonian and direct 
partners. As an educational resource, the SIGEO network leverages huge 
intellectual horsepower, much of that from Ph.D. students and 
postdoctoral fellows. The network is extremely well used by 
independent, university-associated faculty, students and network 
partners. More than 200 scientists have published research from the 
SIGEO data sets, many of them students, attesting to the broad 
usability and science education benefits of the network. One measure of 
this effective leveraging is the large number of NSF-funded research 
projects based within the network. As one example, Dr. Stephen Hubbell, 
currently a UCLA professor of biology and originator of the first 50 
hectare forest plot on BCI 30 years ago, has directed approximately $7 
million dollars in NSF support to his studies of forest dynamics. In 
the process Dr. Hubbell has chaired the Ph.D. committees of 19 students 
currently found on the faculties of Stanford University, University of 
Minnesota, Ohio State University, Louisiana State University, Taiwan 
University and others, and as science leaders on the staff of SAS 
Institute, Wisconsin Department of Natural Resources, National Park 
Service of Portugal and The Nature Conservancy. Dr. Hubbell has also 
trained 9 postdoctoral researchers on the faculties of the University 
of Illinois, University of Pittsburgh, STRI and others, who carry on 
the tradition of STRI-based science education. The tradition of science 
education is so profound across the SIGEO network, that Harvard and 
Yale universities have provided $9 million over five years to support 
the network and its science education and policy initiatives.

STEM education at STRI--looking forward:
    The long-term, cross-disciplinary, multicultural and collaborative 
nature of STRI science provides unique STEM training opportunities for 
the leaders of tomorrow. As we look to the future, landscape 
transformation and remediation in the developing world will take on 
increasing prominence as we consider food and water security and human 
migration associated with sea level rise and desertification. Science 
education in this light is critical, a need that the Smithsonian is 
addressing with the Panama Canal Watershed Experiment, a collaboration 
between the Panama Canal Authority, Panama National Environmental 
Authority, the HSBC Climate Partnership and universities around the 
world. The experiment is large-scale and aims to quantify the diverse 
set of ecological, social, and economic services provided by tropical 
forests and alternative land use in the Panama Canal Watershed. The 
project is a remarkable science education tool that takes advantage of 
the Panama Canal's central role in world commerce to focus global 
attention on ecosystem services provided by tropical forests.
    The Panama Canal Watershed Experiment is also an extraordinary 
research and education opportunity. The experiment provides scaling 
opportunities across the 300,000-hectare Panama Canal watershed using 
remote sensing technologies. These studies are carried out in 
conjunction with students and postdoctoral researchers at the Carnegie 
Global Ecology Institute at Stanford University. It is also important 
to note that climate variation in the Panama Canal Watershed, 
particularly El Nino and La Nina events, provide experimental results 
that can be used to build models permitting the forecasting of 
ecosystem services under different climate change scenarios. In 
addition to studying services delivered locally, the experiment takes 
specific aim on ecosystem services that affect people at some distance. 
For example, the Panama Canal shortens shipping routes and reduces 
carbon emissions associated with transportation, thus extending the 
benefits of water management in the Panama Canal watershed from local 
to global.
    The list of ecosystem services that the Panama Canal watershed 
provides and different opportunities for science and engineering 
education is impressive: 1) regulation of water supply to the canal--
ensuring sufficient water to run the locks and reduction of the risk of 
floods; 2) regulation of drinking water quality for more that 50% of 
the population of Panama; 3) hydropower; 4) regulation of soil erosion 
and siltation in the Panama Canal; 5) avoided deforestation, 
reforestation and carbon sequestration, which couple to represent a 
low-risk opportunity for the United Nations Framework Convention on 
Climate Change Reduced Emissions from Deforestation and Degradation 
approaches; 6) timber and food production; 7) provision of ecosystem 
processes and habitat for endangered species; 8) regulation of disease 
vectors; and 9) ecotourism.
    We also continue to build on our record of research and training 
excellence through increased partnerships with U.S. universities. 
Recently, the Smithsonian has established research and training 
partnerships with the University of Maryland, George Mason University 
and Arizona State University (ASU). The ASU partnership, in particular, 
seeks to connect undergraduate and graduate students interested in 
global environmental change to the tropical ecosystems where 
environmental transformation is the most pronounced. Student 
researchers are also using information about past tropical environments 
to inform our interpretation of earth's response to climate change. The 
University of Florida and STRI, led by paleontologist Carlos Jaramillo, 
have recently been awarded $3.8 million dollar NSF International 
Partnership in Research and Education (PIRE) grant to study new fossils 
and geology exposed by the excavations of the multi-billion dollar 
expansion of the Panama Canal. This massive excavation provides PIRE 
undergraduate and graduate students with an unparalleled opportunity to 
strengthen our understanding of the role the Isthmus of Panama has 
played with regard to climate and biodiversity change through time, and 
a unique perspective on how increasing CO<INF>2</INF> levels may shape 
the forests of the future.
    Lastly, STRI is in the process of developing new relationships 
aimed at utilizing STRI's scientific legacy and position in the tropics 
to increase STEM education for an increasingly diverse student 
community. As a concrete step in this direction, STRI established the 
new position of Academic Dean in late 2009--a first for the 
Institution. The role of the Dean is to further align STRI science with 
education and training opportunities, and immediate results are new 
relationships with: 1) NSF Tree of Life, Encyclopedia of Life and 
taxonomy workshops focused on the marine biology of Bocas del Toro; 2) 
Louisiana State University to create a NSF/Louis Stokes Alliance for 
Minority Participation Center for International Research (funding 
pending); 3) University of Texas at Austin to establish a NSF Research 
Experiences for Undergraduates collaboration (application in 
development); and 4) University of Illinois Urbana-Champaign to develop 
a NSF Integrative Graduate Education and Research Traineeship (IGERT) 
program (application for full proposal to NSF approved June 2010). 
Reviewers of the IGERT pre-proposal favorably recognized the strengths 
that STRI brings to the collaboration, and to a science education model 
that aligns emerging genomic technologies with intimate knowledge of 
the organisms themselves.

Conclusions:

        (1)  The unique combination of top-notch resident research 
        scientists, excellent laboratories and field stations, and 
        geographical position adjacent to tropical lowland rainforests 
        and coral reefs has led to an extraordinary long-term knowledge 
        base at the Smithsonian Tropical Research Institute, and has 
        established an exceptional resource for 21st century innovation 
        and education.

        (2)  The STRI knowledge base and resident scientific staff has 
        served as a magnet for educating scientists at the 
        undergraduate, graduate and postdoctoral levels, financed in 
        order of amount by U.S. federal funds awarded through 
        Smithsonian fellowships and grants, NSF PI-led grants, NIH-NSF 
        ICBG grants, NSF PIRE grant, NSF predoctoral fellowships, NSF 
        Dissertation Improvement grants, NSF International Fellowships, 
        NSF workshop grants, and NSF Research Experiences for 
        Undergraduates grants. The U.S. federal investment in science 
        education at STRI is nearly matched by non-government grants 
        and contracts, EU fellowships and private fellowship donations.

        (3)  STRI serves as one example of post-secondary STEM 
        education at the Smithsonian, but the Smithsonian formula of 
        long-term investment in top-flight resident scientists and 
        science facilities has led to similar excellence and 
        educational success at all the science units at the 
        Smithsonian.

    I cannot emphasize enough the importance of the Smithsonian's 
commitment to long-term research and education. With our research 
perspective, sustained effort and long-term data sets, we are uniquely 
positioned to assess, identify, understand and predict environmental 
threats to biodiversity and incorporate rigorous science into resource 
management and stewardship decisions. We will continue to work with 
academic institutions, government agencies, and the public to educate 
and cultivate the science leaders of tomorrow.
    Thank you for the opportunity to testify today and I look forward 
to answering any questions you may have.

                   Biography for Eldredge Bermingham

    Eldredge Bermingham is the director of the Smithsonian Tropical 
Research Institute a unit of the Smithsonian Institution headquartered 
in Panama City, Panama, since September 2008. He joined the institute's 
scientific staff in 1989 and has served as director since 2007.
    As STRI's director, Bermingham oversees one of the world's premier 
biological research institutes, dedicated to increasing the 
understanding of the past, present and future of tropical biodiversity 
and its relevance to human welfare. STRI promotes research conducted 
primarily in tropical forest and coral reef ecosystems. STRI scientists 
discover new species, test scientific explanations for ecological 
adaptation and evolutionary innovation, develop methods to restore 
degraded ecosystems, promote the conservation of tropical ecosystems, 
and train the next generation of tropical scientists. One of STRI's 
programs, the Smithsonian Institution Global Earth Observatories 
[SIGEO], which evolved from STRI's Center for Tropical Forest Science, 
encompasses 40 forest plots in 20 countries around the globe, and 
represents the best observational platform in the world for evaluating 
the impact of global change, including climate, on the ecosystem 
function of forests. Bermingham has been a strong proponent of cross-
unit and intergovernmental collaborations at the Smithsonian, 
encouraging the development of projects through the Smithsonian Marine 
Science Network, the Smithsonian Barcode of Life Initiative, and the 
Smithsonian Global Earth Observatories.
    Bermingham's laboratory has advanced knowledge of range expansion 
of organisms across the land bridge formed as the Isthmus of Panama 
rose to connect North and South America 3 million years ago, and has 
informed understanding of contemporary biological invasions. His 
analyses of bird populations on the islands of the Lesser Antilles 
contribute to the understanding of extinction, and his studies of 
marine organisms separated by the Isthmus of Panama has refined 
understanding of molecular clocks and their use in the study of 
evolution.
    Bermingham has published over 140 peer-reviewed articles; edited 
the book Tropical Rainforests: Past, Present and Future published by 
the University of Chicago Press in 2005; has sponsored more than 20 
postdoctoral students; advised over 30 predoctoral students, and served 
on the committee of 17 of the latter. Bermingham earned a bachelor's 
degree in biology from Cornell University in 1977 and a doctorate 
degree in genetics from the University of Georgia in 1986.

    Chairman Lipinski. Thank you, Dr. Bermingham.
    I now recognize Ms. Werb.

   STATEMENT OF SHARI WERB, ASSISTANT DIRECTOR OF EDUCATION, 
  NATIONAL MUSEUM OF NATURAL HISTORY, SMITHSONIAN INSTITUTION

    Ms. Werb. Chairman Lipinski and other distinguished Members 
of the Subcommittee, thank you for the opportunity to testify 
before you on the science education activities of the 
Smithsonian. I have been the Director of Education and Outreach 
at the National Museum of Natural History for about two years. 
Before I arrived, my knowledge and experience of the museum was 
that of a DC resident, a mother of two boys, and 18 years as a 
museum professional. I now fully appreciate that the scientific 
resources at the museum are an incredible treasure trove.
    The museum has more than 200 active scientists and hundreds 
of experts, including conservators, collection specialists, and 
educators, who bring to their work research, deep knowledge, 
passion, and great stories. There are more than 126 million 
objects that represent a unique collection of evidence about 
the universe, the Earth, life on this planet, and human 
culture. With more than seven million visitors on-site and tens 
of millions more online, and as a national science museum, we 
have both a unique responsibility and an opportunity to further 
science, literacy, and public engagement around science.
    This especially resonated when President Obama launched the 
``Educate to Innovate'' campaign for excellence in STEM 
education, challenging the Nation to strengthen America's role 
as the world's engine of scientific discovery in the 21st 
century.
    The National Museum of Natural History is itself an engine 
of scientific discovery. Its mission is to inspire curiosity, 
discovery, and learning about nature and culture through 
research, collections, exhibitions, and education. The museum 
plays an important role in the Smithsonian Institution's new 
strategic plan, helping to meet the plan's ``Grand Challenges'' 
as referenced in the Secretary's testimony.
    Visitors to the Museum, both on-site and online, are 
exposed to ongoing research which enhances their critical 
thinking skills. Students of all ages are being invited to 
actively participate in science. For example, a family may 
visit the Sant Ocean Hall with an invertebrate zoologist 
examining a newly-identified jellyfish species at the 
``Scientist Is In'' station.
    I have included more detailed examples of these programs in 
my submitted testimony, but will focus my remarks on one 
creative program that illustrates how the museum is bringing 
science to students. This program is the Youth Engagement 
through Science, or Y.E.S.! program, which provides access to 
educational and career development opportunities in science to 
minority youth in the Washington, DC region. This summer we 
have 15 rising tenth and eleventh grade students. During this 
six-month program students explore natural history and pursue 
meaningful research projects with the museum's best scientists 
in the biological, geological, and anthropological disciplines.
    Y.E.S.! provides a curriculum to enhance the students' 
communications skills and support their college preparation 
activities. This component is crucial, because tenth grade is 
the year when students need to prepare for college. Y.E.S.! 
ensures that as students experience scientific careers as 
viable, they are also engaged in college preparation. That 
planning includes improving critical reading, writing, and 
mathematical skills, as well as understanding the college 
entrance process. By the end of their Y.E.S.! experience the 
participants will have been engaged in important research with 
world-class scientists, started planning for college, and 
produced a project based on what they have learned.
    Here is an excerpt from a letter one of our participants 
wrote to her grandparents. ``I started my internship at the 
Museum of Natural History, and I absolutely love it. My 
assigned project is fossilized charcoal where I am going to 
work with 73-million-year-old objects. The Museum is not only a 
tourist attraction. It is actually a major research facility 
and education center. We are not only learning the facts of the 
Museum, but we are going to be doing research alongside 
scientists. These first days have been fun, and I am excited to 
work with them for the next six months. I definitely want to 
study science. I can't wait to see what we will be doing 
tomorrow. Camille.''
    The museum is having a major impact in minority communities 
by using our tremendous science resources to train students in 
research at the undergraduate and high school level, providing 
valuable experiences that will prepare them to compete for 
positions.
    In addition to the 400 interns and fellows that the museum 
hosts each year, we have also launched the Natural History 
Research Experiences program. These summer internships pair 
undergraduates with mentors on the Museum's research and 
collection staff, providing a hands-on introduction to 
research. The program provides participants with a stipend, 
travel allotment, housing and funds for a research proposal. 
This summer we are hosting 18 students, 40 percent of whom are 
from under-represented groups.
    These are just a few examples of how the Museum is 
providing access to its scientific assets to engage and educate 
the public.
    Again, thank you for giving me the opportunity to testify. 
I am happy to answer any questions you may have.
    [The prepared statement of Ms. Werb follows:]

                    Prepared Statement of Shari Werb

    Chairman Lipinski and other distinguished Members of the 
Subcommittee, thank you for giving me the opportunity to testify before 
you today on some of the science education activities of the 
Smithsonian. I have been the Director of Education and Outreach at the 
National Museum of Natural History for a little more than two years. 
Before I arrived, my knowledge and experience of the Museum was that of 
a District of Columbia resident, a mother of two boys, and a Museum 
professional (I had been working at the Holocaust Museum for 18 years 
prior to coming). However, I had no idea of the incredible treasure 
trove of scientific resources hidden behind the scenes at the Museum. 
Out of reach of most visitors are more than 200 active scientists, 
hundreds of other experts including conservators, preparators, 
collections specialists and educators, and their research, their deep 
knowledge, their passion and their great stories. Behind the scenes and 
out of reach of most visitors are the more than 126 million objects and 
specimens that represent a unique collection of evidence about the 
universe, the Earth, life on this planet and human culture. With these 
assets, with more than 7 million visitors onsite and tens of millions 
more to its website, and as a National science museum the Natural 
History Museum has both a unique responsibility and an opportunity to 
further scientific literacy and public engagement and dialogue around 
science. This especially resonated when President Obama launched the 
Educate to Innovate Campaign for Excellence in Science, Technology, 
Engineering and Math (STEM) Education, challenging the Nation to 
strengthen America's role as the world's engine of scientific discovery 
in the 21st Century.
    The National Museum of Natural History is itself an engine of 
scientific discovery. Its mission is to inspire curiosity, discovery 
and learning about nature and culture through outstanding research, 
collections, exhibitions and education. The Museum plays an important 
role in the Smithsonian Institution's new Strategic Plan, helping to 
meet the Plan's Grand Challenges of Understanding and Sustaining a 
Biodiverse Planet, Valuing World Cultures and Unlocking the Mysteries 
of the Universe. Specifically, our education programs are designed to 
further the Plan's priorities of Broadening Access and Revitalizing 
Education, with exciting offerings for learners of all ages everywhere.
    Through education and outreach programs, visitors to the Museum 
(both onsite and online) are becoming exposed to ongoing research and 
discovery and are enhancing their critical thinking skills. Regardless 
of how much time they have, students of all ages are being invited to 
actively participate in authentic science. For example, a family on a 
short visit may spend time in the Sant Ocean Hall with an invertebrate 
zoologist closely examining a newly identified jellyfish species at the 
``Scientist Is In'' station. Teenagers doing an assignment on human 
evolution may spend hours on the new Human Origins website manipulating 
and comparing 3-dimensional early human skulls--one of our new 
collections- and evidence-based websites for the public. Latino and 
other minority students may spend six months with Youth Engagement 
through Science (Y.E.S.!), an in-depth program at the Museum that 
provides access and opportunities for underrepresented minorities.
    The following are three examples of education and outreach programs 
that have connected the public with the Museum's authentic science and 
collections. Eighteen months ago, in partnership with the Museum's 
forensic anthropologists, the Education and Outreach Office opened its 
very popular Forensic Anthropology Lab, an experimental hands-on, 
interactive, educational space embedded in the Museum's exhibition 
Written in Bone: Forensic Files of the 17th Century. The Lab provides 
students and the public with a unique opportunity to explore the past 
first-hand by examining bones and artifacts ``found'' at realistic 
research sites based on actual Smithsonian Forensic Anthropology cases. 
Through these activities, students learn to use the tools, technology, 
techniques and problem solving skills of forensic anthropologists. 
During the investigation, students collect evidence at six stations, 
examining real human bones and artifacts as well as reference 
materials, such as charts, graphs and databases. When the students 
finish collecting data, they analyze and synthesize it to form a 
conclusion about the person whose bones are part of the case. There are 
also other activities at which visitors can learn about anatomy, for 
example by using x-rays to examine bones and teeth. Already 
approximately 125,000 people have participated in these authentic 
science programs.
    While the Forensic Anthropology lab is a temporary educational 
space connected with a temporary exhibition, the Museum is planning to 
open a much larger permanent laboratory experience in late 2012. The 
Museum's vast scientific assets and its educational resources will be 
brought out from behind closed doors so that hundreds of visitors each 
day will be able to engage actively and enter into dialogue with the 
Museum's world-class team of scientists and experts and the largest 
natural history collection in the Western Hemisphere. It will function 
as a physical learning center at NMNH, as a virtual learning space on 
the Museum's website, and as an open collaborative laboratory for the 
study and investigation of learning natural history science.
    With the Museum's Sant Ocean Hall welcoming more than 5 million 
visitors each year and with the assets of the Smithsonian's active and 
extensive marine science research and collections program, the Museum 
fulfilled its commitment to Ocean Education by recently launching the 
Smithsonian Ocean Portal (www.ocean.si.edu) designed to inspire 
awareness, understanding and stewardship of the world's ocean through 
exploration of the Smithsonian's collections, science and variety of 
online ocean adventures, educational quests and teacher lesson plans. 
This project was led by the Natural History Museum in collaboration 
with other Smithsonian units as well as with more than 20 organizations 
including the National Oceanic and Atmospheric Administration (NOAA), 
Encyclopedia of Life (EOL), National Geographic, and the Ocean 
Conservancy. The Ocean Portal is already providing access to the 
Museum's collections that serve as a record of life in the Gulf of 
Mexico before the recent Gulf of Mexico oil spill. In the ``For 
Educators'' section of the Ocean Portal, there are a number of lesson 
plans to support teachers' efforts to communicate the impact of the 
spill on the ocean.
    The Museum's commitment to bringing its scientific assets to 
students is being realized through the new Youth Engagement through 
Science (Y.E.S!) program. This program provides access to educational 
and career development opportunities in science to Latino and other 
minority youth in the Washington DC. region with the first year 
generously funded by the Smithsonian Latino Center and the Marpat 
Foundation. This summer from approximately 50 applications, we have 
selected 15 rising 10th and 11th grade students who have already had 
one year of science instruction laying the foundation for their 
research activities in Y.E.S!
    During this six-month program students will explore natural history 
science and pursue meaningful authentic research projects with the 
Museum's best research scientists in the biological, geological and 
anthropological disciplines. It will also provide a curriculum to 
enhance the students' communication skills and support their college 
preparation activities through a partnership with the Center for 
Minority Achievement in Science and Technology (CMAST). This component 
is crucial because 10th grade is the year during which students begin 
to prepare in earnest for postsecondary education (e.g. PSATs, college 
visits). Y.E.S! will ensure that as students experience scientific 
careers as viable options for their future, they are also preparing for 
that future through college preparation planning. That planning will 
include improving critical reading, writing and mathematical skills, as 
well as understanding the college entrance process. By the end of their 
Y.E.S.! experience the youth involved in the program will have 
participated in important research with world-class scientists; started 
planning for college; and produced a project based on what they have 
learned. Students will share these projects, and NMNH will promote what 
the students have accomplished.
    The Museum can have a great impact in Latino and other minority 
communities by using its tremendous science resources to train students 
in scientific research activities, at both the undergraduate and high 
school level, providing valuable experiences that will prepare these 
students to compete for positions outside the Smithsonian.
    In closing, let me briefly mention one more program at the Museum 
that illustrates our strong commitment to training the next generation 
of scientists at the undergraduate level. In addition to the 400 
interns and fellows that the Museum hosts each year, this year we have 
launched the Natural History Research Experiences (NHRE) program. NHRE 
summer internships pair undergraduates with members of the Museum 
research and collections staff, providing a hands-on introduction to 
scientific research and a scientific mentor from one of the Museum's 
research departments. NHRE provides successful candidates with a 
stipend, travel allotment, housing and funds for a research proposal. 
Students are being provided with behind-the-scenes events and tours of 
the Museum and all research departments. This summer we are hosting 18 
students, and 40% of them are from under-represented groups. We are 
currently in discussions with the National Science Foundation to 
jointly host this effort in the future.
    These are just a few examples of how the Museum is providing access 
to its scientific assets to engage and educate the public in 
furtherance of the Smithsonian's Strategic Plan, develop programs to 
train the next generation of scientists, and answer President Obama's 
call to action to join with him in a national campaign to engage young 
people in the STEM fields.
    Again, thank you for giving me the opportunity to testify. I am 
happy to answer any questions you might have.

                        Biography for Shari Werb

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Shari Rosenstein Werb joined the Smithsonian's National Museum of 
Natural History in April 2008 as the Assistant Director for Education 
and Outreach. During her tenure she has brought the Museum's rich 
``behind-the-scenes'' resources to the fore by encouraging the personal 
involvement of scientists and increasing the presence of scientific 
research in all educational offerings (programs and websites). She has 
also fostered innovation and leadership in programs, technology and 
social media; expanded and professionalized the Museum's volunteer 
corps; and elevated the role of research and reflective practice in all 
education and outreach projects. Under Ms Werb's leadership, the 
Education and Outreach Staff have won several awards for original web 
projects and have been awarded grants for innovative programs. In 
January 2010, Ms Werb was selected to participate in the Federal 
Executive Institute's month long Leadership for a Democratic Society 
program.
    Prior to her current position, Ms Werb worked for 18 years at the 
United States Holocaust Memorial Museum. She held a number of different 
positions there including Director of Institutional Outreach, where she 
developed strategic partnerships to engage new audiences and produced 
programs that helped inspire the public to make connections between the 
Holocaust and today's world. She also served as Director of Educational 
and Public Programs and proudly identifies as one of the Museum's 
founding staff members. She co-authored a chapter, ``Transforming 
Practice: Disability Perspectives and the Museum,'' published in Re-
Presenting Disability: Activism and Agency in the Museum in 2010, and 
also contributed the chapter ``Using Art to Teach about the 
Holocaust,'' to the publication Teaching and Studying the Holocaust. Ms 
Werb participated in an International Partnerships among Museums (IPAM) 
exchange program in Croatia in 2005, assisting in the development of a 
new education center on the grounds of Jasenovac, a former 
concentration camp site. She has also served as an educational advisor 
to several museums.
    Shari Werb has a Masters of Science degree focusing on Leadership 
in Museum Education from Bank Street College of Education and a 
Bachelor of Arts in Anthropology and Art History from Boston 
University. She is married and is the mother of two boys ages 14 and 9. 
She is an enthusiastic kayaker and loves to travel.

    Mr. Baird. [Presiding] I thank the witnesses. Our Chairman 
will return shortly. I will recognize myself for five minutes, 
and then we will proceed to Dr. Ehlers. With the last name of 
Baird it was mandatory that I attend the hearing on the 
Smithsonian, but it is also a delight.
    A couple of issues I hope you will just expand on a little 
bit. First of all, I was thrilled to see the opening of the 
oceans exhibit. Many of us on this committee have worked very 
hard to raise awareness, and it is a spectacular exhibit. It 
really does a good job.
    I am also very interested in the issue of science 
diplomacy, and the international presence of the Smithsonian 
elsewhere I think speaks well to that, but I wonder if you 
could talk about how the Smithsonian fits into international 
efforts to educate the public about science and to fit into our 
mission, or opportunity, rather, to build relationships. I have 
been to the Library of Alexandria, for example, and I 
understand the origin of the meaning of the word `museum' 
actually traces back to that.
    So, anyway, talk to us a little bit about what the 
Smithsonian is doing internationally that can help build 
relationships internationally.
    Dr. Clough.
    Dr. Clough. I will go first and then maybe others want to 
comment. We are in about 90 different countries in terms of the 
things and activities that we do. I mentioned some of the 
countries that I have visited. I haven't been to 90 countries, 
but it is fascinating to be there, and I think science is 
really a language that is a global language and helps people 
understand. The problem of the environment is something that 
affects every nation, not just one nation.
    So I think that our science work is global to begin with. 
Our scientists are very much known globally. I think the 
Smithsonian is pretty unique in that activity. For example, the 
Smithsonian Tropical Research Institute would be open to 
scientists from other countries coming to work there and learn 
from us. They certainly can visit us, and many do visit the 
Natural History Museum to use the collections that are quite 
unique. And we do see technology as a way of improving that, 
because rather than coming over at a particular time to see a 
particular object, they might be able to see--if it is 
digitized, they can see it digitally. They can do their work at 
home and then spend much more effective time when they come see 
us.
    We are visited continuously by people who want help from 
us, and we do the best job we can. We have just created a 
program called an International Museum Studies program to help 
countries in other places, and we had a visitor from Egypt not 
long ago because they want to build a new science museum, and 
they would love to get advice from us in terms of those kinds 
of activities. So I think we generously give advice, we offer 
access to our collections, we invite their scholars to come 
here, and then through a multiple range of activities, then, we 
are active in that regard.
    Mr. Baird. Anyone else wish to comment on that?
    Dr. Bermingham. I would be happy to say something very 
quickly. At STRI we host about 1,000 visiting scientists a 
year, of which about four out of every ten--six out of every 
ten are from the U.S., four out of ten are international. So we 
play a remarkable role in providing science opportunity for 
both researchers and students from around the world.
    In addition, I mentioned SIGEO, which is this global 
network in 21 countries, and with support from National Science 
Foundation and others we provide analytical workshops. And I 
think it is always important to remember that all of the 
world's great universities are in the developed world, and I 
think what we do is we provide up and coming young scientists 
in the developing or emerging economies the opportunity to 
learn from some of the best. So we are very proud of what we 
have done in that way. Phenomenal.
    Mr. Baird. Please, Dr.
    Dr. Clough. To add one other different note on that, I just 
got back from Haiti last week, and we are working with the 
State Department and with the White House on helping with 
recovery efforts down there. Now, our efforts there are related 
to art and historical documents, which are today lying in the 
ruins of their museums and their great buildings and their 
universities. And so we have a team down there who are working 
with the Haitians to help train them on how you recover this 
art and save these precious documents before they get lost.
    The reason it comes back to science is a lot of it has to 
do with materials science. We are working on saving murals. 
You've got to have the materials scientists there who 
understand how these things adhere to the surface. If you are 
going to maintain the integrity of some of the frames and some 
of the documents, again, it is a scientific matter. And so the 
Smithsonian brings that to the table. So that is another 
example of cultural diplomacy through science.
    Mr. Baird. Those are all great examples.
    Very last, and briefly, talk to us very briefly about the 
funding for the research aspect of Smithsonian and then briefly 
if you care to allude to it, Dr., the--my understanding--
Smithsonian had a fairly significant infrastructure backlog. I 
don't know if that--the status of that. Maybe briefly address 
both of those.
    Dr. Clough. Sure. Well, the Smithsonian is a trust, as was 
alluded to I think earlier, and about 65 percent of our funding 
comes from federal appropriations. The rest of it we ``earn'' 
ourselves, some of which we actually compete for, grants from 
federal agencies, where that is allowed. We do a lot of work 
with NASA. We operate the Chandra X-ray satellite telescope, 
and so we are reimbursed from NASA for that service. We also 
build telescopes for NASA and others, and so we are in that 
business as well.
    So there are the competitive grants. Then we also compete 
on--we get philanthropic grants for a lot of the science that 
we do. Dr. Bermingham just came back from England, where the 
HSBC, the banking corporation, has provided almost $10 million 
to do documentation with the SIGEO effort.
    So we try to be on top and get the funding where it makes 
sense to get the funding to do the work that we do, and so you 
will find that to be--but there is always a challenge. As 
Congressman Ehlers alluded, there is really not enough money to 
do the work we need to do, given the opportunities that we 
have. And so there is a constant struggle.
    In addition, it is very important, and I think Congress has 
been--particularly lately--more aware of the importance of 
maintaining collections. That is not--if you want to use the 
word, `sexy' research, but it is very necessary and very 
important, and so that is the sustaining kind of support we 
need to get from Congress. We really can't get a donor to 
support those kinds of activities.
    Now, you mentioned the business of the infrastructure 
issues that we face. Like any great institution with lots of 
buildings--we have 770 all total around in our different 
operations--we do have some challenges in terms of maintenance, 
and I do like to make the point that the Smithsonian museums 
are open every day of the year but Christmas. We have upwards 
of 30 million people going through our buildings, so that is a 
tremendous load on those buildings, a tremendous wear and tear 
on those buildings, and that is where Congress, I think, really 
has to help us in that public service effort that we have.
    Now, we roughly need, our calculation suggests, and you 
could use industrial standards and things of that sort, 
guidelines, about $150 million a year based on our cost of our 
infrastructure to revitalize the museums and then secondarily 
about $100 million a year to upkeep and do maintenance. So that 
is about 250 million a year annually. We are running probably 
around 180 in that total. Congress has been generous again. One 
hundred and eighty is not 250, and so there is always a little 
fall back, but we are working very hard to try to stay on top 
of the most critical maintenance and revitalization issues that 
we have, and we try to use your funds as leverage, so we work 
with donors in many cases to raise funds over and above what 
the Federal Government would give us to supplement those 
activities so we can make major renovation.
    Mr. Baird. Thank you very much.
    I recognize Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and the buzzing I 
assume means we have a vote coming up very soon, so I will try 
to be fairly brief.
    The Smithsonian is an absolutely wonderful institution. 
There is just no question about it. Nothing like it in the 
world, especially given its history, its origin. Out of anger 
against another nation, and its success and everything it has 
done.
    At the same time I probably worry more about the 
Smithsonian than I do most federal institutions because you are 
quite different and your funding pattern is quite different, 
and it seems to me that one of your big problems is, of course, 
fundraising. You are one of the few federal institutions that 
has to go out and raise a very substantial part of its budget. 
That is an opportunity, but it is also a burden on you, 
especially Dr. Clough, but also on the whole staff. They are 
all aware of it.
    I think another problem is that you are first and foremost 
an education and research organization, and yet I don't believe 
you are treated that way very well in the budgetary process. It 
is, you know, you are looked at more as a museum for the 
public, I think, and rightfully so because you do that very 
well, and you have huge attendance figures. But even so, NASA 
has set an example, I think, for government agencies, in how to 
reach out to the schools. They, of course, have more money to 
do that than you do, but I think that sets a good pattern that 
you should try to emulate if you can only extract the same 
amount of money from the Congress and perhaps from donors that 
NASA does.
    So--and I am rambling here a bit, but maybe it is because I 
feel so strongly about the Smithsonian, and I have been 
involved with you not recently but prior to that to a great 
extent, and I really think we--it is not just your problem to 
solve. I think the Congress has to address this in a more 
direct fashion, and I would like to see you in the elementary 
and secondary schools as much as NASA is, but you can't 
possibly do it without appropriate funding.
    And so there is so much to be done and so little money to 
do it at this point. I think there really has to be a strong 
awakening, perhaps even a reawakening, among both the public 
and the Congress about the Smithsonian, what it does, what it 
can do, what it could do with more money, and so forth.
    I suspect you don't disagree with me on that, but I guess 
what I am really trying to do is lead up to the fact that I 
think you need a workforce of some sort, a task force to 
examine those issues, but there has to be something happening 
at the Congressional level as well and working with you, and I 
don't see a framework for that. That is what frustrated me with 
the House Administration Committee, which really had very 
little to do with the Smithsonian, but yet we got called in 
constantly to solve problems which we didn't create and which 
we in many cases were not suitably able to solve given the 
resources and the assignment we have.
    So I would think it would be beneficial to try to really 
reexamine the role the Smithsonian plays in science in this 
Nation, and also in terms of education and helping all the 
museums across the country, many of which are also in dire 
fiscal straits.
    So I have rambled on a bit, but I would appreciate your 
reaction to that.
    Dr. Clough. Sure, and my colleagues, again, may want to 
join in. I think you hit the nail right on the head, and one of 
the problems that I do get frustrated about is when people 
think of us as a museum. Now, it is lovely that we have these 
fabulous museums, but people don't understand what it takes to 
make them work, make them tick, and that they are educational 
institutions, they are research institutions, and they have 100 
new exhibits every year. You don't do that without a tremendous 
amount of effort and work for--directed towards education.
    To me, I think the breakthrough for us, really, is the 
digital revolution and the fact that we can now take 
collections that are largely unseen, we can take researchers 
who are fabulous people that, I mean, this probably represents 
that type of person on this panel more than anyone else, but I 
love to be with Terry Erwin, who knows more about beetles than 
anybody in the world. He is a fascinating person, and we have 
dozens of people who just are really remarkable scientists, and 
with web technology we can get these folks out, and as we get--
penetrate into the schools, there will be a lot more visibility 
of the Smithsonian and what we actually do and what we actually 
stand for.
    We had a conference with Secretary Duncan this morning on 
rural education, and our online programs that Claudine has 
referred to have penetrated into the rural sector. I grew up in 
a rural community, and I have made sure that our educational 
programs get to Douglas, Georgia, whenever we do that. And the 
fact of the matter is, they are more--they are so profoundly 
meaningful there because those communities don't have the great 
cultural assets of the big cities, and they value what we bring 
to them, and right now they don't know we exist. And the more 
we can get out there, we can reach people where they live, 
work, and play, and have a more profound impact on young 
people, the better off we will be.
    But we are working very much on this line to get 
Smithsonian science and education known out there by folks so 
they will understand us better. Clearly additional funding 
would be a tremendous help to us to take advantage of the 
opportunities we have to serve the American people in a much 
more profound way.
    Mr. Ehlers. If I may just add one note to that, and perhaps 
I should have been more diligent in educating my colleagues 
about doing this, but we speak in schools a lot, and whenever I 
speak in a school, particularly elementary school, I tell the 
children, now, when you go home tonight, you talk to your dad 
and mom and tell them that you want to go to Washington, DC, 
and you don't just want to see flags and monuments and parades 
but that you want to go to the Smithsonian museums, and you 
tell them that they will never find a better deal for vacation 
because everything is free. That is a lot cheaper than 
Disneyland, even when you take into account the excess of 
lodging cost here.
    But I really give them the sale pitch nice, and now, you go 
home and tell your parents you want to go to Washington, you 
know, the whole family go, you want to visit the Smithsonian, 
and it is not going to cost them a cent except for a place to 
stay, and you are willing to camp.
    So at any rate, I think you really need a sales pitch like 
that to get more of the young people interested.
    Thank you.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    I just want to ask Mr. Bilbray, are you going to have 
questions? Okay. Let me go----
    Mr. Bilbray. Let me just make just a short statement 
because I am going to be coming back in touch base.
    Chairman Lipinski. Okay, because I want to wrap this up, 
and there is six minutes left in the vote.
    Mr. Bilbray. Okay. Just very short.
    Chairman Lipinski. I will recognize Mr. Bilbray.
    Mr. Bilbray. I appreciate that. I just have to say to Dr. 
Biff, sorry I missed you in Panama, and let me just say, Mr. 
Chairman, I think that, no offense to the other Members, but 
one of the things that--the opportunities that the Smithsonian 
provides is very diverse. The research facility in Panama shows 
you just exactly how diverse. I really would love to get Vernon 
and Dana Rohrabacher over to the Smithsonian in Panama because 
I think that is the way that research facility's working out 
some ideas, there is something for everybody and enough to 
raise everyone to be not so sure of their conclusions today.
    I think that is one of the fresh things about research is 
that you got to be brave enough to really do proper, I mean, to 
be brave enough to do it right, you got to be brave enough to 
question assumptions and be willing to chance being proven 
wrong, and that is one thing this town doesn't ever like to do.
    So hopefully we will be able to talk about tapping into 
that, and Biff, just tell--I hope that I can take Mr. Herzog 
out and teach him surfing because he obviously does not 
understand inter-coastal tides appropriately yet, and a little 
more time in the salt water might be better than him sitting in 
those lakes over there. Okay?
    Dr. Bermingham. I would be delighted to. It will be a true 
honor, and I agree with what you say. I think what is really 
setting STRI and all the Smithsonian science apart from others 
right now is the long-term attitude we take and we serve as 
honest brokers for data. I mean, we are there to collect high-
quality data over the long term and not to politicize it.
    I would just like to also say that I think that in terms of 
funding, and we need the funding, there is no question about 
it, but Dr. Clough referenced the HSBC association we have, but 
I think what we are going to find--and I think one of the 
reasons that we were successful in getting additional funding 
from HSBC was the strong support that we get from the Federal 
Government, recognizing that what they give us in addition to 
that will be carried on because of the federal investment.
    But at the same time I think you are going to find 
corporate America--but also beyond our borders more and more--
interested in investing in the type of science that the 
Smithsonian does, because they recognize that to predict the 
future, they need that type of science.
    But I am looking forward to getting you back to Panama.
    Mr. Bilbray. Well, Dr., if it is possible, before you leave 
I would like to be able to discuss something with you in a 
secure environment that is time sensitive that specifically 
affects your opportunities of expansion in the Panama region. 
So we need to talk about that whenever you get a chance. My 
office is on this floor. I have got to go vote, but I will be 
available as soon as possible if possible. Okay?
    Dr. Bermingham. I will be there.
    Mr. Bilbray. Okay.
    Chairman Lipinski. Thank you, Mr. Bilbray, and the Chair 
recognizes himself for five minutes, although I don't think we 
will have five minutes.
    I just wanted to echo Dr. Ehlers' comments about education 
and thank him for--we agree about Members going out and 
promoting the Smithsonian.
    What I want to ask is, Dr. Clough, you were a President of 
a university, Georgia Tech. How does--as a former assistant 
professor, I wanted to ask you how do the--what is the 
comparison between researchers at the Smithsonian and those at 
a, you know, in academe? How are--how do people get their 
positions? How do things work differently? We have, you know, 
tenure in academe. So can you just give me a comparison?
    Dr. Clough. There are many similarities, of course, because 
both types of individuals love research, they are passionate 
about what they do. Both are interested in translating their 
research into education. So that is the similarity.
    The differences comes back to this long-term issue. The 
Smithsonian tends to be in things for the long haul. 
Universities tend to be driven by grant cycles. They will work 
on a series of issues for a while while there is grant money, 
and if the grant money moves over here, they move over here. 
And so universities tend not to be as long-term focused as the 
Smithsonian would be.
    STRI has been in the business for 100 years. We are 
fortunate, for example, in some of the climate change work we 
have done with fossils that we have done for probably 30 years, 
and you wouldn't see that at a university. We also do 
collections-based research. Universities can't afford to have 
collections anymore, and so the Smithsonian has this marvelous 
set of collections which even today are being used with new 
techniques of DNA studies to discover new species without 
leaving Washington, DC, but simply going to our collections 
center and finding new species by virtue of DNA research.
    I think there is a strong component of service-based 
research at the Smithsonian When the Hudson River incident 
occurred and the plane went down and the remains of the birds 
were brought down here, we were the ones who identified what 
those birds were, what the sex of the birds were, and where 
they came from, and we were able to point out they were Canada 
geese, of course. They were from Canada because we knew where 
they had been feeding based on the analysis of the feathers and 
the remains. And so that gave the folks in New York a good 
handle on how to begin to deal with the bird issues around 
airports.
    There is a lot of service-based focus at the Smithsonian. 
You don't see quite as much of that at a university. 
Universities, of course, teach, and therefore, they have direct 
impact on large numbers of students. The Smithsonian has a 
large number of interns, but ours are more short-term 
internships and connections there.
    And I do think in the future we will find the Smithsonian 
particularly able to deliver its research to the K-12 community 
in a more effective way than universities can.
    Chairman Lipinski. And what do you do in terms of 
fellowships?
    Dr. Clough. We have our own fellowship sources, so we have 
funding from--even though James Smithson's money is long gone, 
we do have an endowment of almost $1 billion, and much of that 
has been given, like at the universities, for specific 
purposes. And so, for example, recently Mr. Peter Buck, who is 
on the Natural History Museum Board, who is himself a 
physicist, gave $20 million to the Smithsonian for fellowships, 
and it is a wonderful gift. So it allows young people from 
universities and other entities go come to the Smithsonian and 
study with us in the sense of a graduate student, if you will, 
or a post-doc, here at the Smithsonian.
    Now, in addition, we have another pool of funds we use for 
interns, and that would be for young undergraduates who come to 
the Smithsonian and study here. Some universities--Smith, being 
one, has its own endowment from an alumnus for 13 of their 
students to come here and spend a year at the Smithsonian each 
year. And so we are trying to build those relationships, we are 
signing MOUs [Memorandums of Understanding] with universities, 
we are working with universities so we have more direct 
connections with them in terms of our research, and that is 
something I have been able to use my former experience to good 
effect with.
    For example, with George Mason, we offer a joint degree in 
conservation biology, which has been--now, they will have the--
they have the admissions department and all the degree granting 
ability, but we share responsibility for the degree. The 
students study at the Zoo and in Front Royal there. So we have 
facilities they don't have. We can use that to help educate 
students in a different way than they can.
    Chairman Lipinski. I have a bill to try to increase the 
collaboration between museums and national labs. Is there any 
collaboration with the Smithsonian and national labs, if you 
can answer that in 30 seconds or less?
    Dr. Clough. Uh-huh. We do have connections with national 
labs, particularly, you know, with the different agencies, 
typically though the agencies more than the national labs. A 
lot of the national labs are energy related, and we don't do 
energy research per se. Now, we do research that informs energy 
through, for example, climate change. We have had discussions 
with Dr. Chu and with a number of the people--Biff, I know you 
met recently with the Department of Energy, because they are 
looking for ways to begin to quantify the beneficial effects of 
carbon sequestration. We can do that when we work with them, 
and we are working with the Department of Energy and with the 
Arizona State University because we don't have an economics 
department, and they do have one that focuses on that activity.
    So we are looking to partner with groups where we have 
something in common and we can have good--we are working with 
Battelle on education, and I know Claudine has been talking to 
them as well. They are very interested in inter-city education, 
as we are, and so we are going to be working with Battelle on 
delivery, particularly in the DC school systems, I think, 
fairly soon about that.
    I don't know if you would want to speak to that, Claudine.
    Chairman Lipinski. I am sorry. I would love to hear about 
it, but unfortunately, we are out of time. There is a vote on 
the floor. We still have some--a good number of Members out. We 
will be able to make it there, but I am going to need to bring 
this hearing to a close.
    I want to--before that, I want to thank all of our 
witnesses for testifying. The record is going to remain open 
for two weeks for additional statements from the Members and 
for answers to any follow-up questions the Committee may ask of 
the witnesses.
    And, again, I want to thank the witnesses for their 
testimony today and their work with the Smithsonian, and with 
that the witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
